<html>
<title> - SAFEGUARDING OUR NATION'S SURFACE TRANSPORTATION SYSTEMS AGAINST EVOLVING TERRORIST THREATS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




 
   SAFEGUARDING OUR NATION'S SURFACE TRANSPORTATION SYSTEMS AGAINST 
                       EVOLVING TERRORIST THREATS

=======================================================================

                             JOINT HEARING

                               before the

                            SUBCOMMITTEE ON
                        TRANSPORTATION SECURITY

                                and the

                    SUBCOMMITTEE ON COUNTERTERRORISM
                            AND INTELLIGENCE

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 17, 2015

                               __________

                           Serial No. 114-32

                               __________

       Printed for the use of the Committee on Homeland Security
       
       
                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________
 
                               
                   U.S. GOVERNMENT PUBLISHING OFFICE
  99-574 PDF                 WASHINGTON : 2016       
_________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                              
                               
                               
                               
                               

                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Candice S. Miller, Michigan, Vice    James R. Langevin, Rhode Island
    Chair                            Brian Higgins, New York
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Lou Barletta, Pennsylvania           Donald M. Payne, Jr., New Jersey
Scott Perry, Pennsylvania            Filemon Vela, Texas
Curt Clawson, Florida                Bonnie Watson Coleman, New Jersey
John Katko, New York                 Kathleen M. Rice, New York
Will Hurd, Texas                     Norma J. Torres, California
Earl L. ``Buddy'' Carter, Georgia
Mark Walker, North Carolina
Barry Loudermilk, Georgia
Martha McSally, Arizona
John Ratcliffe, Texas
Daniel M. Donovan, Jr., New York
                   Brendan P. Shields, Staff Director
                    Joan V. O'Hara,  General Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

                SUBCOMMITTEE ON TRANSPORTATION SECURITY

                     John Katko, New York, Chairman
Mike Rogers, Alabama                 Kathleen M. Rice, New York
Earl L. ``Buddy'' Carter, Georgia    William R. Keating, Massachusetts
Mark Walker, North Carolina          Donald M. Payne, Jr., New Jersey
John Ratcliffe, Texas                Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
             Krista P. Harvey, Subcommittee Staff Director
                    Dennis Terry, Subcommittee Clerk
             Vacancy, Minority Subcommittee Staff Director
                                 ------                                

           SUBCOMMITTEE ON COUNTERTERRORISM AND INTELLIGENCE

                   Peter T. King, New York, Chairman
Candice S. Miller, Michigan          Brian Higgins, New York
Lou Barletta, Pennsylvania           William R. Keating, Massachusetts
John Katko, New York                 Filemon Vela, Texas
Will Hurd, Texas                     Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
               Mandy Bowers, Subcommittee Staff Director
                    Dennis Terry, Subcommittee Clerk
            Hope Goins, Minority Subcommittee Staff Director
            
            
            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable John Katko, a Representative in Congress From the 
  State of New York, and Chairman, Subcommittee on Transportation 
  Security.......................................................     1
The Honorable Kathleen M. Rice, a Representative in Congress From 
  the State of New York, and Ranking Member, Subcommittee on 
  Transportation Security:
  Oral Statement.................................................     3
  Prepared Statement.............................................     4
The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, and Chairman, Subcommittee on 
  Counterterrorism and Intelligence..............................     5
The Honorable Brian Higgins, a Representative in Congress From 
  the State of New York, and Ranking Member, Subcommittee on 
  Counterterrorism and Intelligence:
  Oral Statement.................................................     6
  Prepared Statement.............................................     7
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     7

                               Witnesses

Mr. Eddie Mayenschein, Assistant Administrator, Office of 
  Security Policy and Industry Engagement, Transportation 
  Security Administration, U.S. Department of Homeland Security:
  Oral Statement.................................................     9
  Prepared Statement.............................................    10
Ms. Jennifer Grover, Director, Transportation Security and Coast 
  Guard Issues, Homeland Security and Justice Team, U.S. 
  Government Accountability Office:
  Oral Statement.................................................    14
  Prepared Statement.............................................    15
Mr. Raymond Diaz, Director of Security, Metropolitan 
  Transportation Authority (New York):
  Oral Statement.................................................    23
  Prepared Statement.............................................    25
Ms. Polly Hanson, Chief of Police, National Railroad Passenger 
  Corporation (Amtrak):
  Oral Statement.................................................    27
  Prepared Statement.............................................    28

                             For the Record

The Honorable John Katko, a Representative in Congress From the 
  State of New York, and Chairman, Subcommittee on Transportation 
  Security:
  Letter.........................................................     2


   SAFEGUARDING OUR NATION'S SURFACE TRANSPORTATION SYSTEMS AGAINST 
                       EVOLVING TERRORIST THREATS

                              ----------                              


                      Thursday, September 17, 2015

             U.S. House of Representatives,
                    Committee on Homeland Security,
                   Subcommittee on Transportation Security,
                                             joint with the
         Subcommittee on Counterterrorism and Intelligence,
                                            Washington, DC.
    The subcommittees met, pursuant to call, at 2:10 p.m., in 
Room 311, Cannon House Office Building, Hon. John Katko 
[Chairman of the Subcommittee on Transportation Security] 
presiding.
    Present from the Subcommittee on Transportation Security: 
Representatives Katko, Rogers, Carter, Walker, Ratcliffe, Rice, 
Keating, and Payne.
    Present from the Subcommittee on Counterterrorism and 
Intelligence: King, Hurd, Higgins, and Vega.
    Also present: Representative Langevin.
    Mr. Katko. The Committee on Homeland Security, 
Subcommittees on Transportation Security and Counterterrorism 
and Intelligence, will come to order.
    The subcommittees are meeting today to hear testimony on 
our ability to safeguard our Nation's surface transportation 
systems against evolving terrorist threats. I now recognize 
myself for an opening statement.
    I would like to welcome everyone to today's hearing. I am 
pleased to be joined by fellow New York delegation Members 
Chairman Peter King, Ranking Member Kathleen Rice, and Ranking 
Member Brian Higgins to talk about a topic that is so vital to 
the State of New York.
    Protecting our Nation's surface transportation systems 
requires full cooperation and participation at the Federal, 
State, local, and individual levels. An attack on any of our 
surface transportation systems not only disrupts the local 
economy and infrastructure, but would have a ripple effect to 
cities across our Nation. For example, in my own district in 
Syracuse, New York, we have a freight line that runs through 
our downtown area and provides critical economic benefit to the 
region.
    The purpose of today's hearing is to assess our ability and 
readiness to detect and disrupt threats to our Nation's 
critical surface transportation systems.
    Before we begin, I would like to express my pride and 
admiration for the four Americans that, through unrivaled acts 
of courage and bravery, were able to thwart a terrorist attack 
aboard a Paris-bound train on August 21, 2015. The heroic 
actions of these four men--Mark Moogalian, a teacher originally 
from Midlothian, Virginia; Anthony Sadler, a senior at 
Sacramento State University; Air Force Airman First Class 
Spencer Stone; and Oregon Army National Guard Specialist Alek 
Skarlatos--saved countless lives. They really represent the 
best of what America has to offer.
    However, it is our responsibility to the American people to 
do all that we can to defend them against such heinous acts, 
and the American people should not be put in a position 
requiring them to defend their lives while riding a train, 
subway, or bus to vacation, commute to work, or simply to run 
an errand.
    Since September 11, 2001, many people have come to think of 
a terrorist attack against the United States as one which is an 
elaborate scheme against a hardened target. Increasingly, 
however, the terrorists and their sympathizers are choosing 
soft targets. The Charlie Hebdo attack in Paris, the military 
recruiting centers attack in Chattanooga, and now the train 
attack in Paris are just a few of such examples.
    I look forward to hearing from our witnesses today on their 
perspectives on the state of rail and mass transit security, to 
identify progress made since the terrorist attacks on September 
11, and assess any remaining shortfalls and how to address 
them.
    I ask unanimous consent to insert into the record a letter 
I sent to Administrator Neffenger from the Transportation 
Security Administration expressing my concern over the 
vulnerable state of security of our Nation's surface 
transportation systems. Without objection, it is so ordered.
    [The information follows:]
                                September 17, 2015.
The Honorable Peter Neffenger,
Administrator, Transportation Security Administration, U.S. Department 
        of Homeland Security, 601 12th Street South, Arlington, 
        Virginia 22202.
    Dear Administrator Neffenger: I write regarding the efforts and 
capabilities employed by the Transportation Security Administration 
(TSA) to secure the surface transportation sector in the United States. 
As the country faces growing and proliferating threats from lone-wolf 
terrorist actors, it is imperative that TSA responds to the threat 
landscape in an adaptive and proactive manner. Indicated by the 
recently-foiled terror attack on a Paris-bound passenger train in 
France, which was mitigated by brave U.S. service members, surface 
transportation security presents an entirely unique challenge in 
efforts to secure transportation.
    As Chairman of the Subcommittee on Transportation Security, I am 
concerned that surface transportation is an increasingly attractive 
target for terrorists seeking to inflict damage on the American public 
and the U.S. economy, which depends heavily on the free movement of 
people and goods via transportation systems. It is in light of this, 
that I am convening a joint Subcommittee hearing on the security of our 
surface transportation sector. At the hearing, the Subcommittee will 
hear from a number of federal and local stakeholders on how security 
can be improved in the surface environment. As a supplement to the 
testimony we will receive from TSA's witness at the hearing, I request 
answers to the following questions:
    1. What are the primary threats facing surface transportation 
        security?
    2. What proactive actions has the Department of Homeland Security 
        (DHS) and TSA taken to respond to the unique vulnerability of 
        surface transportation?
    3. How are information-sharing enterprises, such as the state and 
        local fusion centers and FBI-led Joint Terrorism Task Forces 
        utilized to protect surface transportation and what is TSA's 
        role in this effort?
    4. How has TSA worked to improve coordination between federal, 
        state, and local entities and what is the primary mechanism by 
        which TSA communicates threat information to its transit agency 
        stakeholders?
    5. Does TSA conduct regular risk assessments on the nation's 
        surface transportation sector, as a whole, as well as on 
        specific transit agencies? If so, how often, and are the 
        results of such assessments shared with stakeholders?
    6. What is the current deployment focus of TSA-led Visible 
        Intermodal Prevention and Response (VIPR) teams? Are they 
        focused more heavily on surface or aviation systems?
    7. How does TSA measure the security contribution of its surface 
        inspectors program? What sort of surface-specific training do 
        these inspectors receive to qualify them to assess the unique 
        security challenges of the surface transportation environment?
    8. What technological advancements is DHS/TSA investing in to 
        enhance the screening, vetting, and security of surface 
        transportation travelers and workers?
    I look forward to working with you to close vulnerabilities in the 
surface transportation sector and ensure that TSA is doing everything 
possible to keep the traveling public safe in every mode of 
transportation. I appreciate your attention to this matter, and should 
you have any questions, please do not hesitate to contact me or my 
Committee staff[.]
            Sincerely,
                                                John Katko,
                 Chairman, Subcommittee on Transportation Security.

    Mr. Katko. I now recognize a Member of the Subcommittee on 
Transportation Security, the gentlewoman from New York, Miss 
Rice, for an opening statement.
    Miss Rice. Thank you, Mr. Chairman. Thank you for convening 
this hearing. I also want to thank the witnesses for joining us 
here today to discuss the evolving threats to our Nation's 
surface transportation system.
    Since the beginning of the 114th Congress, this 
subcommittee has mainly focused its attention on aviation 
security. But with all modes of surface transportation carrying 
well over 10 billion passengers each year and more than 2.5 
million miles of pipeline carrying hazardous liquids and 
natural gases, I am confident we can all agree that surface 
transportation security is equally as important. So I am 
pleased to have the opportunity today to address the security 
challenges facing the surface transportation sector as we 
assess the evolving threats of terrorism.
    Last month, four individuals, including three brave 
Americans, thwarted a potential mass shooting when a man 
carrying a machine gun and a knife boarded a high-speed train 
traveling from Amsterdam to Paris. That should serve as a vivid 
reminder to us all that the threat of terrorism is just as real 
on our trains as it is on our planes, and we must be prepared 
to confront and neutralize that threat wherever we may find it.
    We must work together to rigorously assess our surface 
transportation systems and ensure that we have adequate 
procedures in place to respond to a terrorist attack on an 
American pipeline or mass transit system. We must have 
reliable, comprehensive security plans in place for a wide 
range of scenarios. We must have seamless communication between 
Government entities and transit agencies. We must continue to 
encourage the public to be vigilant at all times, because, as 
we saw last month in France, that can be the difference between 
life and death.
    I am very eager to hear what both the TSA and the private 
sector are doing to guarantee the safety of our citizens, not 
only those who travel on our mass transit systems, but also 
those who live near pipelines and freight railroads, as well as 
those who travel every day on our highways.
    I am also eager to hear what front-line security training 
has currently provided to our transit system workers, given 
that TSA has not yet fulfilled the statutory mandate that they 
develop and implement security training requirements for public 
transportation rail and bus workers.
    In July, Ranking Member Thompson and I asked GAO to review 
TSA's surface inspection program. Specifically, we asked about 
the roles and responsibilities of those inspecting surface 
transportation, how the structure of the inspection program 
aligns with TSA's mission, and what steps are being taken to 
measure its effectiveness. I look forward to seeing the results 
of that review upon its completion, and I would welcome any 
additional information about those questions that our witnesses 
could provide today.
    Mr. Chairman, thank you again for convening this hearing. I 
look forward to a productive dialogue today. I yield back the 
balance of my time.
    [The statement of Miss Rice follows:]
               Statement of Ranking Member Kathleen Rice
                           September 17, 2015
    Thank you, Mr. Chairman. And thank you for convening this hearing.
    I also want to thank the witnesses for joining us today to discuss 
the evolving threats to our Nation's surface transportation systems.
    Since the beginning of the 114th Congress, this subcommittee has 
mainly focused its attention on aviation security.
    But with all modes of surface transportation carrying well over 10 
billion passengers each year, and more than 2.5 million miles of 
pipeline carrying hazardous liquids and natural gases, I'm confident we 
can all agree that surface transportation security is equally as 
important.
    So I'm pleased to have the opportunity today to address the 
security challenges facing the surface transportation sector as we 
assess the evolving threats of terrorism.
    Last month, four individuals, including three brave Americans, 
thwarted a potential mass shooting when a man carrying a machine gun 
and a knife boarded a high-speed train traveling from Amsterdam to 
Paris.
    That should serve as a vivid reminder to us all that the threat of 
terrorism is just as real on our trains as it is on our planes--and we 
must be prepared to confront and neutralize that threat wherever we may 
find it.
    We must work together to rigorously assess our surface 
transportation systems and ensure that we have adequate procedures in 
place to respond to a terrorist attack on an American pipeline or mass 
transit system.
    We must have reliable, comprehensive security plans in place for a 
wide range of scenarios. We must have seamless communication between 
Government entities and transit agencies. We must continue to encourage 
the public to be vigilant at all times--because as we saw last month in 
France, that can be the difference between life and death.
    I am very eager to hear what both the Transportation Security 
Administration and the private sector are doing to guarantee the safety 
of our citizens--not only those who travel on our mass transit systems, 
but also those who live near pipelines and freight railroads, as well 
as those who travel every day on our highways.
    I'm also eager to hear what front-line security training is 
currently provided to our transit system workers, given that TSA has 
not yet fulfilled the statutory mandate that they develop and implement 
security training requirements for public transportation, rail, and bus 
workers.
    In July, Ranking Member Thompson and I asked the Government 
Accountability Office to review TSA's surface inspection program.
    Specifically, we asked about the roles and responsibilities of 
those inspecting surface transportation, how the structure of the 
inspection program aligns with TSA's mission, and what steps are being 
taken to measure its effectiveness.
    I look forward to seeing the results of that review upon its 
completion, and I would welcome any additional information about those 
questions that our witnesses could provide today.
    Mr. Chairman, thank you again for convening this hearing.
    I look forward to productive dialogue today, and I yield back the 
balance of my time.

    Mr. Katko. Thank you, Miss Rice.
    The Chair now recognizes the Chairman of the Subcommittee 
on Counterterrorism and Intelligence, Mr. King, for any 
statement he may have.
    Mr. King. Thank you, Mr. Chairman. I want to thank you for 
holding this joint hearing with the Counterterrorism and 
Intelligence Subcommittee today on terror threats to surface 
transportation.
    If I may be allowed, I would like to acknowledge the fact 
that yesterday the House passed H.R. 720, which you sponsored, 
to require all airports and other surface transportation hubs 
to establish procedures responding to security threats such as 
active shooters. This was in response to the tragic murder of 
TSA screener Gerardo Hernandez, who was shot and killed back in 
November 2013 at LAX. It will now be sent to the President for 
signature. I want to take this opportunity to congratulate you 
on this passage of your first public law. It took me a lot 
longer to get there than it did you. So congratulations.
    Mr. Katko. Thank you very much.
    Mr. King. By the way, as part of that, I think the fact 
that you are holding this hearing today, this joint hearing, is 
emblematic of the dedication you have on this, as does Miss 
Rice and Ranking Member Higgins.
    With the recent attempt by a terrorist on a high-speed rail 
in Europe to take multiple lives, we are more cognizant than 
ever of the vulnerability of our public transportation 
infrastructure. That day, as Chairman Katko mentioned, 
passengers were fortunate to have among them four brave 
Americans, including two members of America's Armed Forces, who 
reacted swiftly and bravely to take down the Islamist extremist 
who attempted to take as many lives as possible that day. But 
the odds are that when the next would-be terrorist attacks 
passengers on a train or a subway, the public may not be so 
fortunate to have such capable people on board who are ready to 
react.
    The easy access to rail transportation is one of the 
features that makes it so popular. Compared with air travel, 
most of us individually appreciate the relative ease of using 
subways, like the Metro here in the District of Columbia or MTA 
in New York or commuter rail, such as Long Island Railroad or 
Metro-North. Everyone values and enjoys simple and easy access. 
However we have seen the vulnerability inherent in easy access 
in most transit services, including we have seen that in 
London, Mumbai, Madrid, Tokyo, and now in Paris. I think as a 
New Yorker, where we have in New York City alone literally 
thousands of train station entrances and exits, combine that 
with Grand Central Station, Penn Station, you realize just how 
challenging this is.
    With ISIS urging supporters to carry out attacks in the 
United States, we have to continue to evaluate the threat, 
vulnerability, and related security measures within our 
security transportation infrastructure. I look forward to 
hearing from the witnesses about efforts to deter and prevent 
attacks, as well as how we are balancing the efficiency of 
public transit with security.
    A key issue is how the Federal Government is assisting 
State, local, and regional partners to better protect the 
traveling public against the threat of terrorism on America's 
public transportation and commuter rail systems.
    Thank you, Mr. Chairman. I look forward to the testimony. I 
yield the balance of my time.
    Mr. Katko. Thank you, Mr. King.
    The Chair now recognizes the Ranking Minority Member of the 
Subcommittee on Counterterrorism and Intelligence, Mr. Higgins, 
for any statement he may have.
    Mr. Higgins. Thank you, Mr. Chairman, for holding this 
hearing to examine options for enhancing the safety and 
security across our surface transportation sectors.
    The attacks of 9/11 focused and exploited the weaknesses 
inherent in our aviation security to perpetuate one of the 
worst attacks on United States soil. However, we must remember 
other modes of transportation have been and remain a top 
priority for terrorist groups world-wide and their affiliates. 
There have been devastating terrorist attacks against all modes 
of surface transportation across the globe, including train 
bombings in Belarus, India, Russia, Spain, and the United 
Kingdom, and most recently a shooting on a train traveling from 
Amsterdam to Paris.
    While there was not been a successful transportation-
related attack by al-Qaeda in the United States since 9/11, 
there have been a number of thwarted plots. My concern with 
this issue led me to introduce legislation in July entitled the 
Known Chemical, Biological, Radiological, and Nuclear Threats 
to Transportation Act.
    The Department of Energy plans to begin transporting highly 
enriched uranium liquid from Canada to South Carolina next 
year. The Department of Energy proposes to transport this 
waste, which is far more radioactive than spent nuclear fuel, 
across the Northern Border at the Peace Bridge, crossing 
through several States and municipalities before reaching South 
Carolina. An attack on one of these trucks crossing the Peace 
Bridge could contaminate the Great Lakes--which contains 84 
percent of North America's surface fresh water--with highly 
radioactive material.
    Moreover, an attack on a truck moving through heavily 
populated areas throughout the United States would have obvious 
and devastating consequences.
    Despite these risks, the Department of Energy is about to 
begin importing highly radioactive material, which has never 
before been shipped in this manner, using outdated, pre-9/11 
information that does not reflect the threats we face today.
    My bill, which was advanced through my Counterterrorism and 
Intelligence Subcommittee today unanimously, would direct the 
Department of Homeland Security's Office of Intelligence and 
Analysis to conduct an assessment of the risks associated with 
the transportation of chemical, biological, nuclear, and 
radiological materials. The bill also mandates that the Office 
of Intelligence and Analysis consult and share information with 
the heads of other Federal agencies, including the 
Transportation Security Administration, so that the assessment 
is informed by the most current information about homeland 
security threats.
    As my bill continues to move through the House and the 
Senate, I hope to raise awareness of the security risks and 
protections needed within the surface transportation sector of 
our country.
    Again, I thank Chairman King, Chairman Katko, and my fellow 
Ranking Member Rice for their leadership in focusing our 
oversight on this hearing. With that, I yield back.
    [The statement of Mr. Higgins follows:]
               Statement of Ranking Member Brian Higgins
                           September 17, 2015
    Chairmen, I would like to thank you for holding this hearing to 
examine options for enhancing the safety and security across our 
surface transportation sectors.
    The attacks of 9/11 focused and exploited the weaknesses inherent 
in aviation security to perpetrate one of the worst attacks on U.S. 
soil. However, we must remember other modes of transportation have been 
and remain a top priority for transnational terrorist groups world-wide 
and their affiliates.
    There have been devastating terrorist attacks against all modes of 
surface transportation across the globe including train bombings in 
Belarus, India, Russia, Spain and the United Kingdom, and most 
recently, a shooting on a train traveling from Amsterdam to Paris. 
While there has not been a successful transportation-related attack by 
al-Qaeda in the United States since 9/11, there have been a number of 
thwarted plots.
    My concern with this issue led me to introduce legislation in July 
titled the ``Known CBRN Threats to Transportation Act.'' The Department 
of Energy plans to begin transporting highly enriched uranium liquid 
from Canada to South Carolina next year. The Department of Energy 
proposes to transport this waste, which is far more radioactive than 
spent nuclear fuel, across the Northern Border at the Peace Bridge, 
crossing through several States and municipalities before reaching 
South Carolina.
    An attack on one of these trucks crossing the Peace Bridge could 
contaminate the Great Lakes, which contain 84% of North America's 
surface fresh water, with highly radioactive material. Moreover, an 
attack on a truck moving through heavily-populated areas throughout the 
United States would have obvious and devastating consequences.
    Despite these risks, the Department of Energy is about to begin 
importing highly radioactive material, which has never before been 
shipped in this manner, using outdated, pre-9/11 information that does 
not reflect the threats we face today.
    My bill, which was advanced through my Counterterrorism and 
Intelligence Subcommittee today unanimously, would direct the 
Department of Homeland Security's Office of Intelligence and Analysis 
to conduct an assessment of the risks associated with the 
transportation of chemical, biological, nuclear, and radiological 
materials.
    The bill also mandates that the Office of Intelligence and Analysis 
consult and share information with the heads of other Federal agencies, 
including the Transportation Security Administration so that the 
assessment is informed by the most current information about homeland 
security threats.
    As my bill continues to move through The House and Senate, I hope 
to raise awareness of the security risks and protections needed within 
surface transportation sector of our country.
    Again, I thank Chairman King, Chairman Katko, and my fellow Ranking 
Member Rice for their leadership and focusing our oversight on this 
hearing.
    With that, I yield back.

    Mr. Katko. Thank you, Mr. Higgins.
    Other Members of the committee are reminded that opening 
statements may be submitted for the record.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
    Thank you, Mr. Chairman, for holding this timely and important 
hearing.
    The Transportation Security Administration was established shortly 
after the terrorist attacks of 2001.
    While the name of the agency implies that its mission is to help 
secure all modes of transportation, in practice, most of TSA's 
attention and resources are dedicated to aviation security.
    TSA has an important statutory role to play in securing freight 
rail, highway and motor carriers, pipelines, and mass transit and 
passenger rail systems.
    Last month's attempted terrorist attack on a passenger train in 
Europe should remind us all of the need to focus on and allocate 
resources to securing all modes of transportation.
    On August 21, 2015, a terrorist opened fire on a train full of 
passengers en route from Amsterdam to Paris.
    Thanks, in large part, to the selfless efforts of four individuals, 
including three Americans, the attacker was subdued and the attack--
which could have been much worse--was ended.
    With this event fresh in our minds, it is necessary for us to 
discuss what TSA can be doing to bolster the Nation's non-aviation 
transportation systems.
    The Implementing Recommendations of the 9/11 Commission Act of 
2007, which I authored, directed TSA to take specific actions to 
address various issues and vulnerabilities within the surface 
transportation sector.
    In addition to requiring security assessments for public 
transportation systems, it directed TSA to issue regulations for a 
public transportation security training program.
    This plan would provide public transportation employees, including 
front-line employees, with the training necessary to properly respond 
in the event of a security threat.
    The law gave TSA interim authority to issue final regulations and 
required TSA to have a detailed program in place by August 1, 2008.
    Needless to say, to this date--nearly 8 years later--the front-line 
training requirement still has not been implemented by TSA.
    It is necessary that the men and women who work to ensure that 
these transportation systems are trained to react to and mitigate the 
effects of a terrorist attack or security incident; they are a vital 
layer of security.
    TSA cannot implement security initiatives within the surface 
transportation sector alone.
    In fact, it takes a comprehensive public-private partnership to 
effectively address vulnerabilities.
    Given today's panel, we will gain a good understanding of the way 
that TSA communicates and works with private-sector entities to prepare 
for security events and implement security measures.
    I expect that Chief Hanson of Amtrak and Mr. Diaz of the 
Metropolitan Transportation Authority in New York will give valuable 
insight and perspective regarding the procedures in place to keep 
travelers safe, as they protect and transport millions of passengers 
every day, and I thank them for being here.
    I also look forward to hearing from Ms. Grover about TSA's progress 
in addressing issues involving rail security incident reporting 
requirements, as well as the system TSA utilizes to integrate 
stakeholder feedback into their surface operations.
    Lastly, I look forward to hearing about TSA initiatives in place to 
address all vulnerabilities and issues associated with surface modes of 
transportation from Mr. Mayenschein.
    I thank all witnesses for being here today, and look forward to the 
dialogue.
    With that, Mr. Chairman, I yield back the balance of my time.

    Mr. Katko. We are pleased to have with us today a group of 
distinguished witnesses to speak on this very important topic. 
Let me remind the witnesses that their entire written 
statements will appear in the record. I simply want to caution 
you that we are going to be interrupted at some point for votes 
today. So the more brief the opening statements, it would be 
probably most productive for us. So I would appreciate you 
accommodating us on that.
    Our first witness today is Mr. Eddie Mayenschein, who 
serves as assistant administrator in the Office of Security 
Policy and Industry Engagement at the Transportation Security 
Administration. Previously, Mr. Mayenschein served as an 
executive at United Airlines and was vice president of flight 
operations for Ameriflight, the world's largest Part 135 
airline.
    The Chair now recognizes Mr. Mayenschein to testify.

STATEMENT OF EDDIE MAYENSCHEIN, ASSISTANT ADMINISTRATOR, OFFICE 
  OF SECURITY POLICY AND INDUSTRY ENGAGEMENT, TRANSPORTATION 
 SECURITY ADMINISTRATION, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Mayenschein. Good afternoon, Chairman Katko, Ranking 
Member Rice, Chairman King, and Ranking Member Higgins, 
distinguished Members of the committee. I appreciate the 
opportunity to appear before you today to discuss the 
Transportation Security Administration's role in surface 
transportation security.
    The surface transportation enterprise is massive. It is a 
huge challenge to secure surface transportation systems in a 
society where the free movement of people and commerce is not 
only expected, it is a valued way of life. Unlike the aviation 
realm where TSA conducts security operations, TSA's role in 
surface is focused primarily on oversight, cooperation, and 
regulation.
    Since its inception, TSA has worked collaboratively with 
surface transportation operators, security partners, and the 
Federal interagency to ensure appropriate security posture. Our 
emphasis has been four-fold: Intelligence and information, 
sharing transportation security grants, training and exercises, 
and operational augmentation.
    Since 2002, TSA has valued collaborative information 
sharing among interagency and industry partners. Intelligence 
and information-sharing efforts are conducted through entities 
such as the Transit Policing and Security Peer Advisory Group, 
or the PAG, consisting of chiefs of police and security 
directors from 27 entities, including the largest U.S. public 
transportation systems, also Canada and the United Kingdom. We 
also host forums such as the Annual Mass Transit and Passenger 
Rail Security Roundtable and monthly industry operator 
conference calls in all modes.
    TSA advises FEMA for DHS surface transportation grants and 
develops risk-based funding priorities on security initiatives 
in surface transportation. Since 2006, $2.3 billion has been 
made available via the various security grant programs.
    Through close work with our partners, we provide resources 
for security exercises and training. With Congress' help, TSA 
created the Intermodal Security Training and Exercise Program, 
or I-STEP, to assist surface entities testing and evaluating 
their security plans and their ability to respond to incidents. 
Most recently, an I-STEP exercise was conducted in Philadelphia 
to prepare for the papal visit.
    As was the practice first initiated by DOT's Federal 
Transit Administration, TSA also works very closely with our 
stakeholders to update and disseminate recommended security 
guidelines, such as security action items for mass transit, 
highway and freight rail, motor coach security best practices, 
and pipeline security smart practice observations.
    Lastly, each of the surface modes has developed or is 
developing handbooks, guides, and/or security DVDs, Web-based 
training addressing such subjects as sabotage, IED detection 
and response, and highlights the DHS-sponsored Run, Hide, Fight 
active-shooter training.
    The TSA First Observer program trains highway professionals 
to observe, assess, and report potential security and terrorism 
incidents. Beginning in 2004, and also with Congressional 
support and authorization, TSA expanded the National Explosive 
Detection 
K-9 Program to include mass transit, passenger rail systems, 
and ferries. Currently, 139 transit maritime K-9 teams are 
deployed to high-risk systems.
    In the aftermath of the terrorism incidents in London's 
transit system in 2005, TSA created the Visible Intermodal 
Prevention and Response, the VIPR team concept, to augment law 
enforcement and security personnel to enhance security in the 
Nation's transportation system. Currently, 31 VIPR teams are 
based in 20 high-risk locations throughout the Nation.
    TSA appreciates the collaborative working relationship we 
have with our industry partners, including those from Amtrak 
and New York MTA, who are testifying on this panel today.
    The recent incident in France is a reminder that we 
collectively must remain attentive to world-wide threats and 
incidents. Following that incident, transit and law enforcement 
agencies across the Nation participated in an Amtrak-sponsored 
operation known as RAILSAFE, which is conducted several times 
each year to deter terrorist activity through unpredictable 
security activities.
    I thank the committee Members for their interest, and most 
importantly, their demonstrated support of these issues, and I 
look forward to answering your questions.
    [The prepared statement of Mr. Mayenschein follows:]
                Prepared Statement of Eddie Mayenschein
                           September 17, 2015
    Good afternoon Chairman Katko, Ranking Member Rice, Chairman King, 
Ranking Member Higgins, and distinguished Members of the committee. I 
appreciate the opportunity to appear before you today to discuss the 
Transportation Security Administration's (TSA) role in surface 
transportation security.
    TSA is a high-performing counterterrorism agency, applying a 
layered, intelligence-driven and risk-based approach to protect the 
Nation's transportation systems, including aviation, mass transit and 
passenger rail, freight rail, highway and motor carrier, and pipeline. 
Additionally, TSA leverages its core competencies in credentialing, 
explosives detection, and intermodal security to support the U.S. Coast 
Guard as lead agency for maritime security. With its surface 
transportation programs, TSA strengthens and enhances the security of a 
complex transportation network through cooperative and collaborative 
efforts with significant sector operators to develop best practices and 
share information.
                   surface transportation background
    TSA could not accomplish this essential mission without 
intelligence analysis and information sharing, explosives detection 
canine teams, Visible Intermodal Prevention and Response (VIPR) teams, 
and our industry partners voluntarily adopting security improvements 
and sharing best practices with each other and with TSA. This 
collaborative ``whole community'' approach helps to ensure that both 
TSA and industry resources are applied efficiently and have the highest 
efficacy in reducing risk to the Nation's transportation systems.
    Protecting the Nation's transportation systems to ensure freedom of 
movement for people and commerce is crucial to every American's daily 
life. There are over 12,000 individual companies or agencies that 
operate within the five modes of the surface transportation landscape. 
More than 500 individual freight railroads operate on nearly 140,000 
miles of track carrying essential goods. Eight million large capacity 
commercial trucks, and almost 4,000 commercial bus companies travel on 
the 4 million miles of roadway in the United States and more than 
600,000 highway bridges and through 350 tunnels greater than 100 meters 
in length. In the mass transit and passenger rail mode there are 
approximately 7,300 organizations representing a wide range of systems 
from very small bus-only systems in rural areas to very large multi-
modal systems in urban areas. Surface transportation operators carry 
approximately 750 million intercity bus passengers and 10 billion 
passenger trips on mass transit each year. The pipeline industry 
consists of more than 2.5 million miles of pipelines, owned and 
operated by approximately 3,000 private companies, which transport 
natural gas, refined petroleum products and other commercial products 
throughout the United States.
    TSA oversees the development and implementation of risk-based 
security initiatives for these different modes of surface 
transportation in coordination with our security partners. As part of 
its security and counterterrorism mission, TSA works with private and 
municipal operator stakeholders to formulate policies and practices 
that improve security operations in their day-to-day environment. The 
Surface Division conducts analysis of transportation security and 
threat issues from both a long-term strategic perspective and near 
real-time analysis through data collected from TSA inspections and 
assessments. These analyses facilitate the assessment of risk in each 
surface mode and guide the development of risk reduction plans and 
initiatives. For instance, in 2007 our review of the industry scores in 
the training category of the BASE assessments indicated a potential 
vulnerability. TSA addressed this vulnerability by modifying the 
Transit Security Grants Program to prioritize front-line employee 
training.
    These activities, such as Security Awareness Messages (SAMs), 
provide our security partners with a menu of risk mitigation options 
they can implement based on the threat and their specific capabilities. 
Additionally, we develop, evaluate, approve, and implement surface 
transportation security initiatives to ensure that security guidance, 
policies, and regulations issued by TSA are risk-based, outcome-
oriented, and effective in reducing risk.
 collaboration with federal, state, local, tribal, and private entities
    TSA maintains strong working relationships with modal 
administrations of the Department of Transportation (DOT). The 
Department of Transportation is the co-Sector Specific Agency with TSA 
for the transportation sector and routinely communicates, coordinates, 
and collaborates on the harmonization of safety and security 
priorities. This coordination includes working directly with the 
Federal Railroad Administration, the Federal Transit Administration, 
the Federal Highway Administration, the Federal Motor Carrier Safety 
Administration, and the Pipeline and Hazardous Materials Safety 
Administration. As part of the DHS-led Critical Infrastructure 
Partnership Advisory Council framework, DOT and TSA co-chair Government 
Coordinating Councils for surface transportation modes, including 
freight rail, mass transit and passenger rail, highway and motor 
carrier, and pipelines. Coordinated activities include collaboration on 
new and existing regulations, conducting security assessments and 
analysis of data, developing and conducting training and exercises to 
address counterterrorism and all-hazards, and sharing Unclassified and 
Classified information as appropriate.
    TSA engages with State, local, Tribal, and private-sector partners 
to identify ways to reduce vulnerabilities, assess risk, and improve 
security through collaborative and voluntary efforts while maintaining 
the flow of people and commerce. Planning initiatives and policies in 
coordination with our stakeholders is of utmost importance. TSA works 
with industry operators to ensure efforts and resources are 
appropriately directed towards reducing risk to the surface 
transportation network and infrastructure. Collaboration with those 
stakeholders is particularly important, and achieved in part through 
formal structures like the DHS-led Critical Infrastructure Partnership 
Advisory Council framework, Sector Coordinating Councils, and other 
industry-centric organizations such as the Mass Transit Policing and 
Security Peer Advisory Group.
    Through these established networks and other informal channels, TSA 
collaborates with security and corporate leadership of the industry and 
municipal operator stakeholders in the pursuit of policy that reduces 
risk, including implementation of exercises, physical and cyber 
hardening measures, and operational deterrence activities. We also work 
very closely with our stakeholders in the development and dissemination 
of recommended practices, such as Security Action Items (SAIs) for mass 
transit, highway, and freight rail; motor-coach security best 
practices, and the Pipeline Security Smart Practice Observations. 
Through these networks, we have also established robust information 
sharing procedures and capabilities, such as the distribution of SAMs, 
the establishment of monthly stakeholder conference calls, and the 
dissemination of intelligence and threat information through modal 
Information Sharing and Analysis Centers (ISACs).
    On the passenger rail side, TSA and Amtrak partner on programs such 
as Regional Alliance Including Local, State, and Federal Efforts 
(RAILSAFE) to deter terrorist activity through unpredictable security 
activities. This program also incorporates other rail, transit, and 
local law enforcement agencies and involves counterterrorism activities 
such as increased station and right-of-way patrols, greater security 
presence on trains and at stations, explosive detection sweeps using 
canine teams, and random passenger bag inspections. Participating 
entities conduct these activities at local and regional high-risk 
transit locations to disrupt potential terrorist activities and 
reconnaissance as part of the layered approach to security. On average, 
more than 40 States and over 200 agencies, including TSA's VIPR teams, 
participate RAILSAFE activities.
    Through highway and motor carrier security programs, TSA has 
provided multiple voluntary initiatives to industry through forums and 
other communications, including security action items and training, 
which focus on over-the-road buses that service high-threat urban 
areas, trucks carrying hazardous materials, and student transportation. 
Additionally, TSA coordinates and collaborates with the Department of 
Transportation to develop and implement a National Strategy for Bridge 
and Tunnel Security based on the United States Army Corps of Engineers' 
(USACE) vulnerability assessments. As a result, and working with USACE, 
TSA has assessed 100 percent of all high-risk bridges and tunnels, and 
has provided 81 percent of the remediation recommendations to asset 
owners. The final 19 percent of reports are in the process of being 
completed and will be shared within the next 12 months.
    For the transport of hazardous cargo on the Nation's roadways, TSA 
conducts security threat assessments on professional drivers with 
Commercial Drivers Licenses who seek endorsement to haul hazardous 
materials. Only those applicants who have been successfully vetted and 
have received a TSA-approved Security Threat Assessment (STA) are 
allowed to transport such hazardous materials.
    We work very closely with the pipeline industry on identifying and 
improving cybersecurity vulnerabilities, including coordinating a 
number of Classified briefings to increase awareness of the threat. 
TSA's involvement in the Pipeline Corporate Security Review (CSR) and 
Critical Facility Security Review (CFSR) program continues to help our 
pipeline stakeholders improve their organization-wide and critical 
infrastructure-specific security postures.
    As an example of our close working relationships with the industry, 
TSA recently successfully launched the Loaned Executive Program aimed 
at providing senior-level transportation security officials with first-
hand experience of the Transportation Security Administration's various 
counter-terrorism and risk reduction roles in enhancing industry 
security is providing real-world experience and detailed industry 
exposure to TSA's surface security programs and policies. The program, 
which began as a pilot last September, has seen executives from Amtrak, 
Washington Metropolitan Area Transit Authority, and Bay Area Rapid 
Transit Authority participate in the program so far.
    TSA provides the Federal Emergency Management Agency (FEMA) with 
subject-matter expertise to assist in the development of transportation 
security Notice of Funding Opportunities (grants) for surface 
transportation owners and operators. These FEMA grants support 
transportation risk mitigation by applying Federal funding to critical 
security projects with the greatest security effects. Between fiscal 
years 2006 and 2014, over $2.2 billion in transportation security grant 
funding was awarded to freight railroad carriers and operators, over-
the-road bus operators, the trucking community, and public mass transit 
owners and operators, including Amtrak, and their dedicated law 
enforcement providers. TSA continuously reviews the grant program 
framework and makes recommendations to FEMA, ensuring funding 
priorities are based on identified or potential threat and 
vulnerabilities identified through TSA assessment programs such as the 
Baseline Assessment for Security Enhancement (BASE) program, together 
with consideration of potential consequences. As a result, DHS is able 
to direct grant funds to activities that have the highest efficacy in 
reducing the greatest risk, such as critical infrastructure 
vulnerability remediation, equipment purchases, anti-terrorism teams, 
mobile screening teams, explosives detection canine teams, training, 
drills/exercises, and public awareness campaigns.
                         training and exercises
    TSA works closely with our transportation stakeholders to provide 
resources for security training and exercises. Through a National 
review of assessments, TSA identified areas where we could assist 
transportation entities in providing better security training to their 
front-line employees. As such, TSA prioritized the development and 
distribution of security training resources for surface transportation 
front-line employees through channels such as TSA-produced training 
modules and making recommendations to adjust grant program priorities. 
TSA's First Observer<SUP>TM</SUP> program trains highway professionals 
and other security entities, such as those responsible for providing 
parking and facility security at major sporting arenas and venues, to 
observe, assess, and report potential security and terrorism incidents. 
Since fiscal year 2006, over $141 million in grant funding has been 
awarded to mass transit, freight rail, and over-the-road bus operators 
for security training, including over $129 million through the Transit 
Security Grant Program for mass transit agencies and Amtrak; over $6.9 
million through the Freight Rail Security Grant Program for freight 
rail carriers; and $5.4 million through the Intercity Bus Security 
Grant Program for over-the-road bus operators. Additionally, we have 
developed and distributed an array of mode-specific training products 
for front-line employees. With this targeted effort on security 
training, TSA has seen assessment results related to security training 
improve across all modes of surface transportation. As an example, 
since 2007, the percentage of grant-eligible mass transit agencies that 
have a sound security training program based on their BASE scores has 
increased from 19% to 66%. Also, as a sub-set, the percentage of 
agencies in the higher-risk regions with sound security training 
programs has increased from 27% to 78%.
    With regard to exercises, TSA collaborates with industry through 
our Intermodal Security Training and Exercise Program (I-STEP) across 
all modes of surface transportation. TSA facilitates I-STEP exercises 
to help surface transportation entities test and evaluate their 
security plans, including prevention and preparedness capabilities, and 
their ability to respond to threats and cooperate with first responders 
from other entities. Entities that receive an I-STEP exercise are 
selected through an extensive review process based on risk, which looks 
at elements such as assessment results, emerging threats as identified 
through intelligence resources. As new threats emerge, I-STEP scenarios 
are updated to ensure our industry partners are prepared to exercise 
the most appropriate countermeasures.
                      assessments and inspections
    TSA also plays a role in surface transportation security through 
voluntary assessments and regulatory compliance inspections. The 
Surface Division works closely with TSA's Office of Security Operations 
(OSO), which conducts both voluntary assessments and required 
regulatory compliance inspections.
    TSA conducts approximately 10,000 regulatory inspections of freight 
railroads each year to ensure compliance with regulations requiring the 
secure exchange of custody of rail cars carrying Rail Security 
Sensitive Materials, as well as reporting significant security concerns 
and providing location and shipping information of certain rail 
shipments to TSA.
    OSO's Surface Transportation Security Inspectors conduct a thorough 
security program assessment of mass transit agencies to include Amtrak, 
and over-the-road bus operators through the BASE program. BASE 
assessments are conducted with emphasis on the 100 largest mass transit 
and passenger railroad systems measured by passenger volume, which 
account for over 95 percent of all users of public transportation. 
Results of these assessments feed into resource allocation decisions, 
including I-STEP exercises and grant funding, to ensure that the 
higher-risk entities with the greatest need receive priority 
consideration for available resources. For instance, in 2007 our review 
of the industry scores in the training category of the BASE assessments 
indicated a potential vulnerability. TSA addressed this vulnerability 
by modifying the Transit Security Grants Program to prioritize front-
line employee training.
    Assessments and inspections in surface transportation are not 
limited to rail and highway operations. In pipeline mode, for example, 
the Implementing Recommendations of the 9/11 Commission Act of 2007 
(Pub. L. No. 110-53) required TSA to develop and implement a plan for 
inspecting the critical facilities of the top 100 pipeline systems in 
the Nation. These required inspections were conducted between 2008 and 
2011 through the Critical Facility Inspection program, with regular 
recurring reviews now being conducted through TSA's Critical Facility 
Security Review program.
                               conclusion
    TSA works collaboratively with surface transportation industry 
partners to develop and implement programs while enhancing security and 
mitigating the risk to our Nation's surface transportation systems 
while promoting commerce. I want to thank the committee for its 
continued assistance to TSA and for the opportunity to discuss our work 
in partnering with the surface transportation industry to provide 
better security to the American people. Thank you, and I look forward 
to your questions.

    Mr. Katko. Thank you, Mr. Mayenschein, for your testimony. 
We appreciate you being here today.
    Our second witness is well-known to us, Ms. Jennifer 
Grover, who currently serves as the director for transportation 
security and Coast Guard issues on U.S. Government 
Accountability Office's Homeland Security and Justice Team.
    Ms. Grover, I just want to note that you have provided 
great information for us in both a secure and a nonsecure 
setting in the past, and I look forward to hearing from it 
again today. I encourage you, as always, to be as frank and 
forthright as possible with issues so that we can best address 
them moving forward.
    So what that, I recognize you to testify.

STATEMENT OF JENNIFER GROVER, DIRECTOR, TRANSPORTATION SECURITY 
  AND COAST GUARD ISSUES, HOMELAND SECURITY AND JUSTICE TEAM, 
             U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Grover. Thank you. Good afternoon. I am pleased to be 
here today to discuss TSA's efforts to secure the U.S. surface 
transportation system.
    As many of you have already noted, rail and transit 
systems, pipelines, and the Nation's highway transportation 
system are inherently vulnerable to attack and difficult to 
secure because they are open systems with multiple access 
points, where people and vehicles can generally move about 
freely. In this situation, good intelligence and robust 
communication about possible threats becomes critically 
important.
    Compared to aviation, where TSA has a direct role in 
providing security, TSA's role in surface transportation 
security is indirect. For example, TSA contributes to surface 
transportation security by providing industry with recommended 
security standards and conducting voluntary security 
assessments.
    TSA is also responsible for gathering information and 
sharing intelligence about potential threats. Specifically, TSA 
requires U.S. rail agencies to report all rail security 
incidents, with the intent of allowing TSA to analyze the data, 
identify new threats, and alert the rail industry and law 
enforcement.
    For this to work, though, TSA has to receive consistent and 
accurate information on these rail incidents. They have to have 
a data management system in place to capture the information, 
to conduct appropriate analysis, and have effective data-
sharing mechanisms. TSA has recently taken steps to improve in 
all of these areas.
    In 2012, GAO found that TSA headquarters had not provided 
guidance to local TSA officials, called surface inspectors, 
about the types of rail security incidents that rail systems 
had to report, which led to inconsistent reporting. As a 
result, the number of incidents per million riders reported by 
7 passenger rail systems ranged from less than 1 to 23 during 
2011.
    Now, some variation is always to be expected. But in this 
case passenger rail officials told us that they had received 
inconsistent feedback from TSA surface inspectors about what 
should be reported, particularly for incidents involving 
weapons. We also found that TSA's enforcement of the reporting 
requirement varied, with some rail systems not inspected at all 
over an 18-month period and TSA inspectors taking action 
against some rail systems but not others when both rail systems 
failed to report the same type of incident.
    In addition, the quality of TSA's data was poor, as its 
data management system didn't capture all incidents and was 
prone to data entry errors. Due to other technical limitations, 
TSA couldn't provide basic information, such as the number of 
incidents by type or rail system. Without this type of analytic 
ability, TSA faced challenges in identifying patterns or trends 
in the data as the system was intended to do.
    Finally, in June 2014, GAO also found that surface 
transportation stakeholders varied in their level of 
satisfaction with TSA's security-related information sharing, 
but TSA did not have a systematic process for collecting and 
addressing stakeholder feedback to ensure that the information 
they were providing was of value.
    In response to our recommendations on these issues, TSA 
provided guidance to surface inspectors and rail systems to 
clarify reporting requirements and took steps to enhance the 
consistency of its inspection process. TSA has also made 
improvements to capture data on previously-unreported security 
incidents and changed the data system to improve its analytic 
capabilities. In addition, TSA has developed a new process to 
document and respond to stakeholder feedback on its efforts.
    Collectively, these changes addressed the intent of our 
recommendations. If TSA implements them effectively going 
forward, they will help to ensure that the rail security 
incident reporting process is consistently implemented and that 
TSA has the tools and information necessary to develop a 
useful, comprehensive, and accurate picture of security 
incidents, as well as developing trends or patterns.
    Thank you for the opportunity to testify. I look forward to 
your questions.
    [The prepared statement of Ms. Grover follows:]
                 Prepared Statement of Jennifer Grover
                           September 17, 2015
                             gao highlights
    Highlights of GAO-15-205T, a testimony before the Subcommittees on 
Transportation Security and Counterterrorism and Intelligence, 
Committee on Homeland Security, House of Representatives.
Why GAO Did This Study
    The U.S. surface transportation system's size and importance to the 
country's safety, security, and economic well-being make it an 
attractive target for terrorists. Within the Federal Government, TSA--a 
component of the Department of Homeland Security--is the primary 
Federal agency responsible for overseeing and enhancing the security of 
the surface transportation system. A key component of this 
responsibility is ensuring that security-related information is 
collected, analyzed, and shared effectively across all modes, including 
rail. In 2008, TSA issued a regulation requiring U.S. passenger rail 
agencies to report all potential threats and significant security 
concerns to TSA, among other things.
    This testimony addresses the extent to which TSA has: (1) Developed 
systematic processes for integrating stakeholder feedback about 
security-related information it provides and analyzing trends in 
reported rail security incidents, and (2) ensured consistent 
implementation of rail security incident reporting requirements. This 
statement is based on related GAO reports issued in June 2014 and 
December 2012, including selected updates on TSA's efforts to implement 
GAO's prior recommendations related to rail security and information 
sharing. For the selected updates, GAO reviewed related documentation, 
including tools TSA developed to provide oversight. GAO also 
interviewed TSA officials.
What GAO Recommends
    GAO is making no new recommendations in this statement.
   surface transportation security.--tsa has taken steps designed to 
develop processes for sharing and analyzing information and to improve 
                    rail security incident reporting
What GAO Found
    In June 2014, GAO found that the Transportation Security 
Administration (TSA) did not have a systematic process for 
incorporating stakeholder feedback to improve security-related 
information sharing and recommended that TSA systematically document 
and incorporate stakeholder feedback. TSA concurred with this 
recommendation and, in April 2015, TSA developed a standard operating 
procedure to help ensure proper evaluation and consideration of all 
feedback TSA receives. In December 2012, GAO found TSA had made limited 
use of the rail security incident information it had collected from 
rail agencies, in part because it did not have a systematic process for 
conducting trend analysis. TSA's purpose for collecting this 
information was to allow TSA to ``connect the dots'' through trend 
analysis. However, the incident information provided to rail agencies 
by TSA was generally limited to descriptions of specific incidents. As 
a result, officials from passenger rail agencies GAO spoke with 
reported that they generally found little value in TSA's incident 
reporting requirement. On the basis of these findings, GAO recommended 
that TSA establish a systematic process for regularly conducting trend 
analysis of the rail security incident data. Although GAO has not 
assessed the effectiveness of TSA's efforts, by August 2013, TSA had 
developed a new analysis capability that, among other things, produces 
Trend Analysis Reports from the incident data.
    In December 2012, GAO found that TSA had not provided consistent 
oversight of its rail security reporting requirement, which led to 
variation in the types and number of passenger rail security incidents 
reported. Specifically, GAO found that TSA headquarters had not 
provided guidance to local TSA inspection officials, the primary TSA 
points of contact for rail agencies, about the types of rail security 
incidents that must be reported, which contributed to inconsistent 
interpretation of the regulation. The variation in reporting was 
compounded by inconsistencies in compliance inspections and enforcement 
actions, in part because of limited utilization of oversight mechanisms 
at the headquarters level. GAO also found that TSA's incident 
management data system, WebEOC, had incomplete information, was prone 
to data entry errors, and had other limitations that inhibited TSA's 
ability to search and extract basic information. On the basis of these 
findings, GAO recommended that TSA: (1) Develop and disseminate written 
guidance on the types of incidents that should be reported, (2) enhance 
existing oversight mechanisms for compliance inspections and 
enforcement actions, (3) establish a process for updating WebEOC with 
previously-unreported incidents, and (4) develop guidance to reduce 
data entry errors. TSA concurred with these recommendations and has 
taken actions to implement them. Specifically, in September 2013, TSA 
disseminated written guidance to local TSA inspection officials and 
passenger and freight rail agencies that provides clarification about 
the rail security incident reporting requirement. In August 2013, TSA 
enhanced existing oversight mechanisms by creating an inspection review 
mechanism, among other things. TSA also established a process for 
updating WebEOC in March 2013, and in October 2014, officials reported 
that they have updated the guidance used by officials responsible for 
entering incident data to reduce data entry errors associated with 
incident types. Although GAO has not assessed the effectiveness of 
these efforts, they address the intent of the recommendations.
    Chairmen Katko and King, Ranking Members Rice and Higgins, and 
Members of the subcommittees: I appreciate the opportunity to 
participate in today's hearing to discuss our work related to the 
Transportation Security Administration's (TSA) efforts to secure the 
U.S. surface transportation system, particularly those associated with 
passenger and freight rail.\1\ The transportation system's size and 
importance to the country's safety, security, and economic well-being 
make it an attractive target for terrorists. As shown by the active-
shooter incident that occurred on a train traveling from Amsterdam to 
Paris on August 21, 2015, rail systems are inherently vulnerable to 
attack in part because they rely on an open architecture that is 
difficult to monitor and secure because of its multiple access points; 
hubs serving multiple carriers; and, in some cases, lack of barriers to 
access. One of the critical challenges facing rail system operators--
and the Federal agencies that regulate and oversee them--is finding 
ways to protect rail systems from potential terrorist attacks without 
compromising the accessibility and efficiency of rail travel.
---------------------------------------------------------------------------
    \1\ The surface transportation modes include passenger rail (such 
as subway-type mass transit systems and intercity rail such as Amtrak), 
freight rail, highway and commercial vehicle, and pipeline.
---------------------------------------------------------------------------
    Within the Federal Government, TSA--a component of the Department 
of Homeland Security (DHS)--is the primary Federal agency responsible 
for security in all modes of transportation, including aviation, 
passenger and freight rail, highway and motor carrier, maritime, and 
pipeline.\2\ A key component of this responsibility is ensuring that 
information related to transportation security and potential threats 
across all modes is collected, analyzed, and shared effectively. 
Disrupted terrorist attacks in recent years, such as the April 2013 
disruption of a planned attack on a passenger train operating between 
Toronto and New York City, highlight the importance of reporting and 
sharing security-related information. TSA's other responsibilities, 
however, vary by transportation mode. Specifically, TSA has a direct 
role in ensuring the security of the aviation mode through its 
management of a passenger and baggage screener workforce that inspects 
individuals and their property to deter and prevent an act of violence 
or air piracy. In contrast, TSA's responsibilities for securing surface 
transportation systems such as passenger and freight rail systems have 
primarily included developing National strategies, establishing 
security standards, and conducting assessments and inspections of 
surface transportation modes, while public and private-sector 
transportation operators are responsible for implementing security 
measures for their systems. TSA's annual budget further highlights the 
difference between TSA's roles in securing the aviation and surface 
transportation modes. For example, the DHS Appropriations Act, 2015, 
enacted March 4, 2015, appropriated $123,749,000 for surface 
transportation security compared with $5,639,095,000 for aviation 
security.\3\
---------------------------------------------------------------------------
    \2\ Pub. L. No. 107-71,  101(a), 115 Stat. 597 (2001) (codified as 
amended at 49 U.S.C.  114(d)).
    \3\ Pub. L. No. 114-4, 129 Stat. 39, 44-46 (2015). The 
approximately $124 million and $5.6 billion appropriated to TSA's 
Surface Transportation Security and Aviation Security accounts, 
respectively, do not reflect amounts appropriated to TSA's Intelligence 
and Vetting and Transportation Security Support accounts, which also 
support TSA's surface and aviation security missions, as well as the 
$250 million in fee collections available to TSA through the Aviation 
Security Capital Fund to support security-related airport improvement 
projects and the procurement and installation of explosives detection 
systems for use at airports.
---------------------------------------------------------------------------
    My statement today addresses the extent to which TSA has: (1) 
Developed systematic processes for integrating stakeholder feedback 
about security-related information provided by the agency and analyzing 
trends in reported rail security incidents, and (2) ensured consistent 
implementation of rail security incident reporting requirements. This 
statement is based on related GAO reports issued in December 2012 and 
June 2014, including selected updates on TSA's efforts to implement our 
prior recommendations related to information sharing and rail 
security.\4\ To conduct our earlier work, among other things, we 
conducted a survey of 481 transportation stakeholders, including 
freight and passenger rail stakeholders, from November 2013 through 
January 2014, regarding their satisfaction with TSA's sharing of 
security-related information. We received responses from 337 
stakeholders (a 70 percent response rate). We also reviewed TSA policy 
documents and guidance on rail security reporting requirements, and 
passenger rail security incident data from January 2011 through June 
2012. The reports cited in this statement provide detailed information 
about our scope and methodology. For the selected updates, we reviewed 
related documentation and interviewed TSA officials on TSA's progress 
in addressing our recommendations. This documentation includes tools 
TSA developed to provide oversight of the rail security incident 
reporting process, guidance for TSA inspectors and rail agencies, and 
updates to TSA's data management system, among other things. The work 
upon which this statement is based was conducted in accordance with 
generally accepted Government auditing standards. Those standards 
require that we plan and perform the audit to obtain sufficient, 
appropriate evidence to provide a reasonable basis for our findings and 
conclusions based on our audit objectives. We believe that the evidence 
obtained provides a reasonable basis for our findings and conclusions 
based on our audit objectives.
---------------------------------------------------------------------------
    \4\ GAO, Transportation Security Information Sharing: Stakeholder 
Satisfaction Varies; TSA Could Take Additional Actions to Strengthen 
Efforts. GAO-14-506 (Washington, DC: June 24, 2014), and Passenger Rail 
Security: Consistent Incident Reporting and Analysis Needed to Achieve 
Program Objectives. GAO-13-20 (Washington, DC: Dec. 19, 2012).
---------------------------------------------------------------------------
                               background
    The Implementing Recommendations of the 9/11 Commission Act of 2007 
(9/11 Commission Act) directed DHS to create a plan for sharing 
transportation security-related information among public and private 
entities that have a stake in protecting the Nation's transportation 
system, including passenger and freight rail. This plan--first issued 
in July 2008--is now called the Transportation Security Information 
Sharing Environment (TSISE).\5\ The TSISE describes, among other 
things, the information-sharing process. TSA disseminates security 
information through several information products, including reports, 
assessments, and briefings, among others. These products are 
distributed through mechanisms including the Homeland Security 
Information Network and mechanisms sponsored by industry, such as the 
Association of American Railroads' Railway Alert Network, among others.
---------------------------------------------------------------------------
    \5\ Pub. L. No. 110-53,  1203(a), 121 Stat. 266, 383-85 (2007) 
(codified at 49 U.S.C.  114(u)). The TSISE was formerly called the 
Transportation Security Information Sharing Plan (TSISP). In fiscal 
year 2013, TSA renamed the plan the TSISE to reflect that the TSISE is 
not a part of a plan, but rather a series of processes.
---------------------------------------------------------------------------
    TSA is also specifically responsible for receiving, assessing, and 
distributing intelligence information related to potential threats and 
significant security concerns (rail security incidents) related to the 
Nation's rail system. Specifically, in 2008, TSA issued a regulation 
requiring U.S. rail systems to report all rail security incidents to 
TSA's Transportation Security Operations Center (TSOC), among other 
things.\6\ The TSOC is an operations center open 24 hours a day, 7 days 
a week, that serves as TSA's main point of contact for monitoring 
security-related incidents or crises in all modes of transportation. 
The regulation also authorizes TSA officials to view, inspect, and copy 
rail agencies' records as necessary to enforce the rail security 
incident reporting requirements.\7\ This regulation is supported by TSA 
policies and guidance, including the Transportation Security Inspector 
Inspections Handbook, the National Investigations and Enforcement 
Manual, and the Compliance Work Plan for Transportation Security 
Inspectors. TSA's regulation is intended to provide the agency with 
essential information on rail security incidents so that TSA can 
conduct comprehensive intelligence analysis, threat assessment, and 
allocation of security resources, among other things.\8\ According to 
the regulation, potential threats and significant security concerns 
that must be reported to the TSOC include bomb threats, suspicious 
items, or indications of tampering with rail cars, among others.\9\
---------------------------------------------------------------------------
    \6\ 49 C.F.R.  1580.105, .203. These requirements generally apply 
to passenger and freight rail carriers, as well as rail hazardous 
materials shippers and rail hazardous materials receivers located 
within high-threat urban areas. The regulation also requires rail 
agencies to designate rail security coordinators, and codifies TSA's 
authority to conduct security inspections of rail agency property. 49 
C.F.R.  1580.101, .201.5 This is the only rule that TSA has issued to 
date regarding passenger rail security. Additional rules have been 
issued regarding freight rail security, specifically requirements 
related to rail shipments of specified hazardous materials. The 
Implementing Recommendations of the 9/11 Commission Act of 2007 also 
mandates TSA to develop and issue regulations for a public 
transportation security training program, among other things. Pub. L. 
No. 110-53,  1408, 121 Stat. 266, 409-11 (codified at 49 U.S.C.  
1137). As of September 2015, a draft regulation had not been submitted 
for public comment. According to TSA, the training rule is among the 
agency's highest priorities, but officials did not provide a target 
date for when the revised regulation will be provided for public 
comment.
    \7\ 49 C.F.R.  1580.5.
    \8\ 71 Fed. Reg. 76,852, 76,876 (Dec. 21, 2006).
    \9\ 49 C.F.R.  1580.105(c), .203(c).
---------------------------------------------------------------------------
    Within TSA, different offices are responsible for sharing 
transportation security-related information and for implementing and 
enforcing the rail security incident reporting requirement. For 
instance, TSA's Office of Security Policy and Industry Engagement 
(OSPIE) is the primary point of contact for sharing information with 
private-sector stakeholders, and is responsible for using incident 
reports and analyses, among other things, to develop strategies, 
policies, and programs for rail security, including operational 
security activities, training exercises, public awareness, and 
technology. TSA's Office of Intelligence and Analysis (OIA) receives 
intelligence information regarding threats to transportation and 
designs intelligence products intended for officials in TSA, other 
parts of the Federal Government, State and local officials, and 
industry officials, including rail agency security coordinators and law 
enforcement officials.
    The TSOC, managed by TSA's Office of Law Enforcement/Federal Air 
Marshal Service, is the TSA entity primarily responsible for collecting 
and disseminating information about rail security incidents. Once 
notified of a rail security incident, TSOC officials are responsible 
for inputting the incident information into their incident management 
database known as WebEOC, and for disseminating incident reports that 
they deem high priority or significant to selected TSA officials; other 
Federal, State, and local government officials; and selected rail 
agencies' law enforcement officials. Figure 1 shows the intended steps 
and responsibilities of TSA components involved in the rail security 
incident reporting process. 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    TSA's Office of Security Operations (OSO) is responsible for 
overseeing and enforcing the incident reporting requirement. 
Responsible for managing TSA's inspection program for the aviation and 
surface modes of transportation, the Office of Security Operations' 
Surface Compliance Branch deploys approximately 270 transportation 
security inspectors--surface (TSI-S) Nation-wide.\10\ The TSI-Ss are 
responsible for, among other things, providing clarification to rail 
agencies regarding the incident reporting process and for overseeing 
rail agencies' compliance with the reporting requirement by conducting 
inspections to ensure that incidents were properly reported to the 
TSOC. Six regional security inspectors--surface (RSI-S) within the 
Compliance Programs Division are responsible for providing National 
oversight of local surface inspection, assessment, and operational 
activities.
---------------------------------------------------------------------------
    \10\ There are currently 49 TSA field offices under the Surface 
Compliance Branch. TSI-Ss report to assistant Federal security 
directors--inspection (AFSD-I), who are responsible for all inspection, 
compliance, and enforcement activity in their areas of responsibility. 
Each office is led by a Federal security director charged with the 
implementation of all field operational activities across all modes of 
transportation. For other transportation modes, as of September 2015, 
TSA has deployed 496 air cargo inspectors and 672 aviation regulation 
inspectors.
---------------------------------------------------------------------------
tsa has developed processes designed to integrate stakeholder feedback 
                   and address gaps in trend analysis
TSA Has Developed a Process Designed to Incorporate Feedback on 
        Security-Related Information
    In June 2014, we found that TSA had some mechanisms in place to 
collect stakeholder feedback on the products it disseminates containing 
security-related information and had initiated efforts to improve how 
it obtains customer feedback, but had not developed a systematic 
process for collecting and integrating such feedback.\11\ Specifically, 
in February 2014, TSA reconvened its Information Sharing Integrated 
Project Team (IPT), whose charter included, among other things, 
milestones and time frames for developing a centralized management 
framework to capture stakeholder satisfaction survey data on all of 
TSA's security-related products and the systems used to distribute 
these products.\12\ However, at the time of our June 2014 report, the 
IPT Charter did not specify how TSA planned to systematically collect, 
document, and incorporate informal feedback--a key mechanism used by 
the majority of the stakeholders we surveyed, and a mechanism TSA 
officials told us they utilize to improve information sharing. For 
instance, the rail industry provided TSA with a list of areas for 
emphasis in intelligence analysis in December 2012, and TSA 
subsequently initiated a product line focusing on indications and 
warnings associated with disrupted or successful terrorist attacks. TSA 
officials stated that they further refined one of the products as a 
result of a stakeholder requesting information on tactics used in 
foreign rail attacks. In 2013, one TSA component built a system to 
track informal information sharing with stakeholders at meetings and 
conferences, and through e-mail, but TSA officials stated that the data 
were not used for operational purposes, and TSA had no plans to 
incorporate this system into its centralized management framework 
because the IPT had decided to focus its initial efforts on developing 
a survey mechanism.
---------------------------------------------------------------------------
    \11\ GAO-14-506. Mechanisms include surveys attached to security-
related information products and informal feedback collected at 
meetings with stakeholders.
    \12\ According to TSA officials, TSA formed the IPT in 2009 but 
planning stopped because of multiple TSA organization realignments. IPT 
members include OIA, OSPIE, and other TSA components, as well as 
external entities, such as the DHS Office of Intelligence and Analysis, 
stakeholders, and trade associations. One of the primary missions of 
the IPT is to evaluate TSA's information-sharing services across all 
modes of transportation.
---------------------------------------------------------------------------
    According to our June 2014 survey results, surface transportation 
stakeholders were generally satisfied with TSA's security-related 
products and the mechanisms used to disseminate them.\13\ In 
particular, 63 percent of rail stakeholders (70 of 111) reported that 
they were satisfied with the products they received in 2013, and 54 
percent (59 of 110) reported that they were satisfied with security-
related information-sharing mechanisms.\14\ However, because TSA lacked 
specific plans and documentation related to improving its efforts to 
incorporate all of its stakeholder feedback, it was unclear how, or if, 
TSA planned to use stakeholder feedback to improve information sharing. 
As a result of these findings, we recommended that TSA include in its 
planned customer feedback framework a systematic process to document 
informal feedback, and how it incorporates all of the feedback TSA 
receives, both formal and informal. TSA concurred, and in response, by 
April 2015, had taken actions to develop these processes. Specifically, 
TSA developed a standard operating procedure to organize how its 
offices solicit, receive, respond to, and document both formal and 
informal customer feedback on its information-sharing efforts, which 
delineates a systematic process for doing so. TSA also developed a TSA-
wide standard survey for its offices to use to obtain formal and 
informal feedback on specific products, and created an information-
sharing e-mail inbox to which all survey responses will be sent, 
evaluated, and distributed to the appropriate office for action. We 
have not evaluated these actions, but if implemented effectively, we 
believe that TSA will now be better-positioned to meet stakeholder 
needs for security-related information.
---------------------------------------------------------------------------
    \13\ Sixty-seven percent of surface transportation stakeholders 
(125 of 186) reported that they were satisfied with the security-
related products they received from TSA in 2013, and 58 percent of 
surface transportation stakeholders (106 of 183) reported that they 
were satisfied with the mechanisms used to disseminate this 
information. Respondents who were not satisfied with TSA's security-
related products or information-sharing mechanisms cited concerns that 
the information provided was often dated, among other issues. Survey 
respondents were asked to rate their organization's satisfaction using 
the following terms: ``Very satisfied,'' ``somewhat satisfied,'' 
``neither satisfied nor dissatisfied,'' ``somewhat dissatisfied,'' 
``very dissatisfied,'' and ``don't know.'' We use the term 
``satisfied'' to describe organizations that indicated they were either 
``very satisfied'' or ``somewhat satisfied.'' Similarly, we use the 
term ``dissatisfied'' to describe organizations that indicated they 
were either ``very dissatisfied'' or ``somewhat dissatisfied'' with the 
information they received. Because satisfaction and dissatisfaction 
were not the only possible responses, when we report that 59 percent of 
respondents reported being satisfied, for example, that does not 
necessarily mean that 41 percent were dissatisfied.
    \14\ These results for rail stakeholders differ from those reported 
in GAO-14-506 because they represent the survey responses we received 
from all passenger and freight rail agencies. The ``public transit'' 
category in GAO-14-506 included 13 agencies in modes other than rail. 
To arrive at the numbers in this statement, we combined the responses 
of the 23 rail agencies in the public transit category with the 
responses received from 88 and 87 rail agencies in response to our 
questions on satisfaction with TSA products and mechanisms, 
respectively.
---------------------------------------------------------------------------
TSA Efforts Should Help Address Gaps in Conducting Trend Analysis of 
        Rail Security Incident Information
    In December 2012, we found TSA had made limited use of the rail 
security incident information it had collected from rail agencies, in 
part because it did not have a systematic process for conducting trend 
analysis.\15\ TSA's stated purpose for collecting rail security 
incident information was to allow TSA to ``connect the dots'' by 
conducting trend analysis that could help TSA and rail agencies develop 
targeted security measures. However, the incident information provided 
to rail agencies by TSA was generally limited to descriptions of 
specific incidents with minimal accompanying analysis. As a result, 
officials from passenger rail agencies we spoke with generally found 
little value in TSA's incident reporting process, because it was 
unclear to them how, if at all, the information was being used by TSA 
to identify trends or threats that could help TSA and rail agencies 
develop appropriate security measures. However, as we reported in 
December 2012, opportunities for more sophisticated trend analysis 
existed. For example, the freight industry, through the Railway Alert 
Network--which is managed by the Association of American Railroads, a 
rail industry group--identified a trend where individuals were 
reportedly impersonating Federal officials. In coordination with TSA, 
the Railway Alert Network subsequently issued guidance to its member 
organizations designed to increase awareness of this trend among 
freight rail employees and provide descriptive information on steps to 
take in response. The Railway Alert Network identified this trend 
through analysis of incident reporting from multiple freight railroads. 
In each case, the incident had been reported by a railroad employee and 
was contained in TSA's incident management system, WebEOC.
---------------------------------------------------------------------------
    \15\ GAO-13-20.
---------------------------------------------------------------------------
    On the basis of these findings, in December 2012, we recommended 
that TSA establish a systematic process for regularly conducting trend 
analysis of the rail security incident data, in an effort to identify 
potential security trends that could help the agency anticipate or 
prevent an attack against passenger rail and develop recommended 
security measures. TSA concurred with this recommendation and by August 
2013 had developed a new capability for identifying trends in the rail 
security incident data, known as the Surface Compliance Trend Analysis 
Network (SCAN). SCAN is designed to identify linkages between incidents 
captured in various sources of data, assemble detailed information 
about these incidents, and accurately analyze the data to enhance the 
agency's ability to detect impending threats. According to TSA 
officials, SCAN consists of three elements: Two OSO surface detailees 
located at TSOC, enhanced IT capabilities, and a new rail security 
incident analysis product for stakeholders. According to TSA, one of 
the key functions of the surface detailees is to continuously look for 
trends and patterns in the rail security incident data that are 
reported to TSOC, and to coordinate with OSPIE and OIA to conduct 
further investigations into potential trends. As I will discuss later 
in this statement, TSA has also made improvements to WebEOC, including 
steps to improve the completeness and accuracy of the data and the 
ability to produce basic summary reports, which we believe should 
facilitate this type of continuous trend analysis.
    TSA generates a Trend Analysis Report for any potential security 
trends the surface detailees identify from the rail security incident 
data. The Trend Analysis Report integrates incident information from 
WebEOC with information from multiple other sources, including TSA's 
compliance database and media reports, and provides rail agencies and 
other stakeholders with analysis of possible security issues that could 
affect operations as a result of these trends. According to TSA 
officials, since SCAN was established, approximately 13 Trend Analysis 
Reports have been produced and disseminated to local TSA inspection 
officials and rail agencies. Although we have not assessed the 
effectiveness of these efforts to better utilize rail security 
information, we believe these actions address the intent of our 
recommendation. Further, if implemented effectively, they should better 
position TSA to provide valuable analysis on rail security incidents 
and to develop recommended security measures for rail agencies, as 
appropriate.
 tsa has taken steps to improve consistent implementation of the rail 
                  security incident reporting process
TSA Has Taken Steps to Improve the Consistency of the Rail Security 
        Incident Reporting Process
    In December 2012, we found that TSA had not provided consistent 
oversight of the implementation of the rail security reporting 
requirement, which led to considerable variation in the types and 
number of passenger rail security incidents reported.\16\ Specifically, 
we found that TSA headquarters had not provided guidance to local TSA 
inspection officials, the primary TSA points of contact for rail 
agencies, about the types of rail security incidents that must be 
reported, a fact that contributed to inconsistent interpretation of the 
regulation by local TSA inspection officials.\17\ While some variation 
was expected in the number of rail security incidents that rail 
agencies reported because of differences in agency size, geographic 
location, and ridership, passenger rail agencies we spoke with at the 
time reported receiving inconsistent feedback from their local TSA 
officials regarding certain types of incidents, such as those involving 
weapons. As a result, we found that, for 7 of the 19 passenger rail 
agencies included in our review, the number of incidents reported per 
million riders ranged from 0.25 to 23.15.\18\
---------------------------------------------------------------------------
    \16\ GAO-13-20.
    \17\ For example, officials from one rail agency we spoke with had 
been told by their local TSA inspection officials that they were 
required to report all instances in which a person was hit by a train, 
because an individual cannot be struck by a train in the right of way 
without trespassing or breaching security. In contrast, officials from 
another rail agency told us that their agency does not report all of 
these incidents because they are most often intentional suicides that 
are unrelated to terrorism. ``Local TSA inspection officials'' refers 
to TSI-Ss and AFSD-Is.
    \18\ This includes incidents reported to the TSOC from January 1, 
2011, through December 31, 2011, and recorded in WebEOC. However, there 
are limitations and errors associated with these data, which are 
discussed in greater detail later in this statement. Because of 
limitations associated with identifying the total number of incidents 
by agency, we limited this analysis to 7 of the 19 passenger rail 
agencies that we included in our review. Ridership data for 2011 were 
provided by the American Public Transportation Association.
---------------------------------------------------------------------------
    This variation we identified was compounded by inconsistencies in 
compliance inspections and enforcement actions, in part because of 
limited utilization of oversight mechanisms at the headquarters level. 
For example, in December 2012, we found that TSA established the RSI-S 
position as a primary oversight mechanism at the headquarters level for 
monitoring rail security compliance inspections and enforcement actions 
to help ensure consistency across field offices. However, at the time 
of our report, the RSI-S was not part of the formal inspection process 
and had no authority to ensure that inspections were conducted 
consistently. We also found that the RSI-S had limited visibility over 
when and where inspections were completed or enforcement actions were 
taken because TSA lacked a process to systematically provide the RSI-S 
with this information during the course of normal operations. As a 
result, our analysis of inspection data from January 1, 2011, through 
June 30, 2012, showed that average monthly inspections for the 19 rail 
agencies in our review ranged from about eight inspections to no 
inspections, and there was variation in the regularity with which 
inspections occurred.\19\ We also found that TSA inconsistently applied 
enforcement actions against passenger rail agencies for not complying 
with the reporting requirement. For example, TSA took enforcement 
action against an agency for not reporting an incident involving a 
knife, but did not take action against another agency for not reporting 
similar incidents, despite having been inspected.
---------------------------------------------------------------------------
    \19\ We reviewed inspection data for 19 passenger rail agencies. 
Three passenger rail agencies had not been inspected, including a major 
metropolitan rail agency. Local officials we interviewed said it was 
unlikely that no incidents had occurred at that agency.
---------------------------------------------------------------------------
    On the basis of these findings, in December 2012, we recommended 
that TSA: (1) Develop and disseminate written guidance for local TSA 
inspection officials and rail agencies that clarifies the types of 
incidents that should be reported to the TSOC, and (2) enhance and 
utilize existing oversight mechanisms at the headquarters level, as 
intended, to provide management oversight of local compliance 
inspections and enforcement actions. TSA concurred with both of these 
recommendations and has taken actions to implement them. Specifically, 
in September 2013, TSA disseminated written guidance to local TSA 
inspection officials and passenger and freight rail agencies that 
provides clarification about the requirements of the rail security 
incident reporting process. This guidance includes examples and 
descriptions of the types of incidents that should be reported under 
the regulatory criteria, as well as details about the type of 
information that should be included in the incident report provided to 
the TSOC. Further, as of August 2013, TSA had established an RSI-
dashboard report that provides weekly, monthly, and quarterly 
information about the number of inspection reports that have been 
reviewed, accepted, and rejected. According to TSA officials, this 
helps ensure that rail agencies are inspected regularly, by providing 
the RSI-Ss with greater insight into inspection activities. TSA has 
also enhanced the utilization of the RSI-Ss by providing them with the 
ability to review both passenger and freight rail inspections before 
the inspection reports are finalized and enforcement action is taken. 
According to TSA officials, this allows the RSI-Ss to ensure that 
enforcement actions are applied consistently by local TSA inspection 
officials. TSA also developed a mechanism for tracking the 
recommendations RSI-Ss make to local TSA inspection officials regarding 
changes to local compliance inspections, as well as any actions that 
are taken in response. Collectively, we believe that these changes 
should allow the RSI-Ss to provide better management oversight of 
passenger and freight rail regulatory inspections and enforcement 
actions, though we have not assessed whether they have done so. We also 
believe these actions, if implemented effectively, will help ensure 
that the rail security incident reporting process is consistently 
implemented and enforced, and will address the intent of our 
recommendations.
TSA Has Taken Steps to Improve the Accuracy and Completeness of 
        Incident Data
    In December 2012, we also found that TSA's incident management data 
system, known as WebEOC, had incomplete information, was prone to data 
entry errors, and had other limitations that inhibited TSA's ability to 
search and extract basic information.\20\ These weaknesses in WebEOC 
hindered TSA's ability to use rail security incident data to identify 
security trends or potential threats. Specifically, at the time of our 
2012 report, TSA did not have an established process for ensuring that 
WebEOC was updated to include information about rail security incidents 
that had not been properly reported to the TSOC.\21\ As a result, of 
the 18 findings of noncompliance we reviewed that were a result of 
failure to report an incident, 13 were never entered into WebEOC, and 
consequently could not be used by TSA to identify potential security 
trends. In addition, in December 2012, we found that TSA's guidance for 
officials responsible for entering incident data was insufficient, a 
fact that may have contributed to data entry errors in key fields, 
including the incident type and the mode of transportation (such as 
mass transit or freight rail). At the time of our report, because of 
data errors and technical limitations in WebEOC, TSA also could not 
provide us with basic summary information about the rail security 
incident data contained in WebEOC, such as the number of incidents 
reported by incident type (e.g., suspicious item or bomb threat), by a 
particular rail agency, or the total number of rail security incidents 
that have been reported to the TSOC.\22\ Without the ability to 
identify this information on the number of incidents by type or the 
total number of incidents, we concluded that TSA faced challenges 
determining if patterns or trends exist in the data, as the reporting 
system was intended to do.
---------------------------------------------------------------------------
    \20\ GAO-13-20.
    \21\ TSA could become aware of such an incident through a 
compliance inspection, media reports, or other Governmental incident 
management systems.
    \22\ To conduct our analysis, we asked TSA to provide all passenger 
rail incidents reported to the TSOC from January 1, 2011, through June 
30, 2012, as well as the total number of incidents reported by selected 
rail agencies. In response to this request for data, TSA provided us 
with several inconsistent datasets from WebEOC, which officials 
attributed to differences in the way the data were searched and 
compiled from WebEOC.
---------------------------------------------------------------------------
    On the basis of these findings, in December 2012 we recommended 
that TSA: (1) Establish a process for updating WebEOC when incidents 
that had not previously been reported are discovered through compliance 
activities, and (2) develop guidance for TSOC officials that includes 
definitions of data entry options to reduce errors resulting from data-
entry problems. TSA concurred with both of these recommendations and 
has taken actions to implement them. Specifically, in March 2013, TSA 
established a process for the surface detailee position, discussed 
earlier in this statement, to update WebEOC when previously unreported 
incidents are discovered through compliance activities. Additionally, 
in October 2014, TSA officials reported they have updated the guidance 
used by TSOC officials responsible for entering incident data into 
WebEOC to include definitions of incident types. TSA has also made 
changes to WebEOC that will allow for officials to search for basic 
information, such as the total number of certain types of incidents, 
required to facilitate analysis. We have not reevaluated the data 
contained in WebEOC, but we believe that the changes TSA has made 
should allow the agency to conduct continuous analysis of the rail 
security incident data to identify potential trends. We believe these 
actions address the intent of our recommendations and, if implemented 
effectively, should improve the accuracy and completeness of the 
incident data in WebEOC. This should provide TSA with a more 
comprehensive picture of security incidents as well as allow it to 
better identify any trends or patterns.
    Chairmen Katko and King, Ranking Members Rice and Higgins, and 
Members of the subcommittees this concludes my prepared statement. I 
would be happy to respond to any questions you may have at this time.

    Mr. Katko. Thank you, Ms. Grover, for your testimony. We 
appreciate you taking the time to be here today as well.
    Our third witness is Mr. Raymond Diaz, who is currently 
serving as the director of security at the Metropolitan 
Transportation Authority. Previously, Mr. Diaz served as chief 
of the Transit Bureau with the New York City Police Department.
    The Chair now recognizes Mr. Diaz to testify.

 STATEMENT OF RAYMOND DIAZ, DIRECTOR OF SECURITY, METROPOLITAN 
              TRANSPORTATION AUTHORITY (NEW YORK)

    Mr. Diaz. Good afternoon, Chairman Katko, Chairman King, 
and other Members of the subcommittees. Thank you for holding 
this hearing and for inviting me to discuss security at New 
York's Metropolitan Transportation Authority. Joining me today 
is Michael Coan, the chief of the department for the MTA 
Police.
    Before joining the MTA in January 2014 as director of 
security, I served as chief of the New York City Police 
Department's Transit Bureau, responsible for the safety and 
security of the MTA, New York's TRANSIT SYSTEM. During my 41-
year career with the NYPD, I also served as commanding officer 
of Patrol Borough North and Patrol Borough South and the School 
Safety Division. Before joining the NYPD, I served in Vietnam 
with the United States Marine Corps.
    In my present position, I am responsible for the security 
of the MTA, including coordinating MTA efforts with the 
Department of Homeland Security, the FBI, the National Guard, 
the NYPD, and the New York and Connecticut State Police. I 
oversee the MTA Police Department, which has jurisdiction in 14 
counties in New York and Connecticut and patrols a 5,000-
square-mile rail network. I am responsible for the 
implementation and execution of the security strategy that 
offers maximum protection to the public, the MTA employees, and 
MTA property.
    Before I discuss security in more depth, I would like to 
set the stage with some basic facts about the MTA. Every day we 
move more than 8.7 million people on our subways, buses, and 
commuter rail lines. We are one of the few transit systems in 
the world that operates 24 hours a day, 7 days a week, 365 days 
a year. Our 7 bridges and 2 tunnels carry nearly 300 million 
vehicles a year. Our network of trains, buses, bridges, and 
tunnels is a trillion-dollar asset, meaning this: If we were to 
build our network today, including about 9,000 rail cars, 5,000 
buses, and millions of other assets, it would cost nearly $1 
trillion.
    Protecting millions of people a day in a trillion-dollar 
asset is an enormous task. I can tell you that the MTA's 
priority is clear: Ensuring the safety and security of our 
customers and our employees.
    To protect our customers and our assets, the MTA employs 
multi-layered security strategies. Some strategies, like 
policing, are highly visible. Others are less visible, like 
structural hardening, advances in technology, and improved 
communications.
    The hallmark of policing our 5,000-square-mile territory is 
collaboration. Let me explain. In response to the growing 
threat of active-shooter attacks, over 95 percent of our PD 
officers have received transit security grant-funded active-
shooter training. In addition, over 60 officers have received 
heavy weapons training. We have a robust See Something, Say 
Something campaign coupled with security awareness training for 
our front-line employees. The two serve to encourage vigilance, 
as well as educate individuals as to what appropriate actions 
should be taken when suspicious activity is observed. To date, 
the MTA has trained in excess of 35,000 front-line employees.
    The recent incident of a potential active shooter in France 
thwarted by vigilant rail passengers clearly illustrates the 
importance of such awareness initiatives and training. Transit 
Security Grant Program grant awards have also supported our See 
Something, Say Something campaign and our civilian employee 
training.
    Behind the scenes, one critical layer to us surely is the 
structural and technological hardening of our infrastructure. 
Since 9/11, the MTA has invested close to $1.4 billion of local 
funds towards an aggressive campaign to harden our subway and 
our commuter rail systems, as well as our bridges, tunnels, and 
other infrastructure. Critical stations and vulnerable areas 
have been secured with electronic security systems, consisting 
of CCTV, intrusion detection, and access control devices. We 
have also deployed chemical, biological, radiological detection 
technology at such locations.
    We have benefited from over $400 million in support for our 
security program from DHS since 2003. TSA and FEMA have helped 
us immeasurably with grant allocations and reallocations.
    Unfortunately, the trend of a shrinking National program 
has limited our ability to move forward with our capital 
security mitigations. For example, in fiscal year 2009, the MTA 
received $92 million of a $349 million National program. Six 
years later, the National appropriation has dropped by 75 
percent, leaving only $87 million for transit agencies across 
the country.
    We are grateful for the support and are pleased that the 
initial period of performance for transit security grants has 
been extended to 36 months, which affords us time needed to 
complete capital security projects funded through the TSGP.
    Another layer of MTA's security strategy is communication 
and intelligence sharing. At the Federal level, we have 
excellent working relationships with our DHS partners 
represented by FEMA and TSA. We attend regular meetings, 
conference calls, and continually exchange information. When 
potential threats are identified, they are communicated 
immediately. We share intelligence with many law enforcement 
agencies on a daily basis through our Inter-Agency 
Counterterrorism Task Force.
    Additionally, we conduct joint patrol initiatives with 
other regional transportation agencies, including Amtrak, the 
Port Authority of New York and New Jersey, New Jersey Transit, 
the New York and Connecticut State Police, the New York State 
National Guard, and the NYPD. MTA PD detectives represent the 
MTA on the FBI's Joint Terrorism Task Force, the FBI's Cyber 
Crimes Unit, the High Intensity Drug Trafficking Area, and the 
NYPD Counterterrorism and Intelligence Units.
    I am proud to oversee this system and its proactive and 
accomplished security personnel and look forward to continuing 
to work with my colleagues in law enforcement and you in the 
House to keep our customers safe and our systems secure. Once 
again, thank you for inviting me to testify today, and I will 
be happy to answer any questions.
    [The prepared statement of Mr. Diaz follows:]
                   Prepared Statement of Raymond Diaz
                           September 17, 2015
    Good afternoon Chairmen Katko and King, and other Members of the 
subcommittees. Thank you for holding this hearing and for inviting me 
to discuss security at New York's Metropolitan Transportation 
Authority. Joining me today are Michael Coan, chief of department of 
the MTA Police.
    Before joining the MTA in January 2014 as director of security, I 
served as chief of the New York City Police Department's Transit 
Bureau, responsible for the safety and security of the MTA New York 
City Transit system. During my 41-year career with the NYPD, I also 
served as commanding officer of Patrol Boroughs Manhattan North and 
South, and the School Safety Division. Before joining the NYPD, I 
served in Vietnam with the U.S. Marine Corps.
    In my present position, I'm responsible for the security of the 
MTA, including coordinating MTA efforts with the Department of Homeland 
Security, the FBI, the National Guard, the NYPD, and the New York and 
Connecticut State Police. I oversee the MTA Police Department, which 
has jurisdiction in 14 counties in New York and Connecticut and patrols 
a 5,000-square-mile rail network. I'm responsible for the 
implementation and execution of a security strategy that offers maximum 
protection to the public, MTA employees, and MTA property.
    Before I discuss security in more depth, I'd like to set the stage 
with some basic facts about the MTA. Every day, we move more than 8.7 
million people on our subways, buses, and commuter rail lines. We're 
one of the few transit systems in the world that operates 24 hours a 
day, 7 days a week, 365 days a year. Our 7 bridges and 2 tunnels carry 
nearly 300 million vehicles a year. Our network of trains, buses, 
bridges, and tunnels is a $1 trillion asset, meaning this: If we were 
to build our network today--including about 9,000 railcars, 5,000 
buses, and millions of other assets--it would cost nearly $1 trillion.
    Protecting millions of people a day and a trillion-dollar asset is 
an enormous task. I can tell you that the MTA's top priority is clear: 
Ensuring the safety and security of our customers and employees. To 
protect our customers and our assets, the MTA employs a multi-layered 
security strategy. Some strategies, like policing, are highly visible; 
others are less visible, like structural hardening, advances in 
technology, and improved communications.
    The hallmark of policing our 5,000-square-mile territory is 
collaboration. Let me explain. The NYPD is responsible for patrolling 
the most heavily-used portion of our network, New York City subways and 
buses. We work closely with the NYPD to ensure that capital investments 
are consistent with the latest security and policing strategies.
    The MTA PD polices our commuter rail system. Metro-North Railroad 
and Long Island Rail Road are the two busiest commuter rail agencies in 
the country. Since 9/11, we've concentrated on counter-terrorism 
strategies. The department has grown from 494 uniformed officers to 722 
today. Fifty K-9 teams are now deployed throughout the system, and 
we've significantly increased our presence on trains and at stations. 
In addition to the MTA PD, 721 Bridge and Tunnel officers patrol our 7 
bridges and 2 tunnels.
    In response to the growing threat of active-shooter attacks, over 
95% of our MTA PD officers have received TSGP-funded Active-Shooter 
Training. In addition, over 60 officers have received heavy weapons 
training.
    We have a robust ``See Something, Say Something'' campaign, coupled 
with security awareness training for civilian front-line employees. The 
two serve to encourage vigilance as well as educate individuals as to 
what appropriate action should be taken when suspicious activity is 
observed. To date, the MTA has trained in excess of 35,000 front-line 
employees.
    The recent incident of a potential active shooter in France 
thwarted by vigilant rail passengers clearly illustrates the importance 
of such awareness initiatives and training. TSGP grant awards have also 
supported our ``See Something, Say Something'' campaign and civilian 
employee training.
    Behind the scenes, one critical layer to our security is the 
structural and technological hardening of our infrastructure. Since 9/
11, the MTA has invested close to $1.4 billion of local funds toward an 
aggressive campaign to harden our subway and commuter rail systems, as 
well as bridges, tunnels, and other infrastructure. Critical stations 
and vulnerable areas have been secured with electronic security systems 
consisting of CCTV, intrusion detection, and access control devices. 
We've also deployed chemical, biological, and radiological detection 
technology at such locations.
    We've benefitted from over $400 million in support of our security 
program from DHS since 2003. TSA and FEMA have helped us immeasurably 
with grant allocations and reallocations. Unfortunately the trend of a 
shrinking National program has limited our ability to move forward with 
our capital security mitigations. For example, in fiscal year 2009 the 
MTA received $92 million of a $349 million National program. Six years 
later, the National appropriation has dropped by 75%, leaving only $87 
million for transit agencies across the country.
    We're grateful for this support, and are pleased that the initial 
``period of performance'' for transit security grants has been extended 
to 36 months, which affords us the time needed to complete capital 
security projects funded through the TSGP.
    Another layer of the MTA's security strategy is communication and 
intelligence sharing. At the Federal level, we have an excellent 
working relationship with our DHS partners, represented by FEMA and 
TSA. We attend regular meetings and conference calls, and continually 
exchange information. When potential threats are identified, they are 
communicated immediately.
    We share intelligence with many law enforcement agencies, on a 
daily basis, through our Inter-Agency Counterterrorism Task Force 
(ICTF). Additionally, we conduct joint patrol initiatives with other 
regional transportation agencies including: Amtrak, the Port Authority 
of New York and New Jersey, New Jersey Transit, the New York and 
Connecticut State Police, the New York State National Guard, and the 
NYPD.
    MTA PD detectives represent the MTA on the FBI's Joint Terrorism 
Task Force, the FBI Cyber Crimes Unit, the High-Intensity Drug 
Trafficking Area program, and the NYPD Counter Terrorism and 
Intelligence units.
    I'm proud to oversee this system and its proactive and accomplished 
security personnel, and look forward to continuing to work with my 
colleagues in law enforcement and you in the House to keep our 
customers safe and our system secure. Once again, thank you for 
inviting me to testify today. I'm happy to answer any questions you 
might have.

    Mr. Katko. Thank you, Mr. Diaz, for your testimony and for 
being here today.
    Our fourth witness is Chief Polly Hanson, who serves as 
Amtrak chief of police, overseeing more than 500 law 
enforcement officers and civilians across the Nation. 
Previously, Chief Hanson served for 27 years at the Metro 
Transit Police, rising to the position of chief of police and 
director of Office of Law Enforcement and Security at the U.S. 
Department of Interior.
    Ms. Hanson, I will note, and for the rest of the panel, 
that our votes have been called. So after your testimony, we 
will take a break to go do the votes and then reconvene.

 STATEMENT OF POLLY HANSON, CHIEF OF POLICE, NATIONAL RAILROAD 
                 PASSENGER CORPORATION (AMTRAK)

    Chief Hanson. Yes, sir. Good afternoon.
    The Amtrak Police Department was created to protect 
Amtrak's employees, passengers, rolling stock, and other 
critical infrastructure. We do that by working closely with our 
colleagues in the law enforcement and counterterrorism 
communities to collect intelligence, pilot new technology, and 
surge our resources.
    The Amtrak Police Department consists of more than 500 
members based in 30 locations. Our patrol officers are the most 
visible part of our department. They patrol stations, ride 
trains, perform education and enforcement on railroad safety, 
and are the first response to Amtrak incidents. Our Special 
Operations Unit consists of officers with tactical skills who 
perform station surges, conduct random passenger bag screening, 
perform countersurveillance, and dignitary protection. Our K-9 
Program, which consists of both conventional and vapor wake 
detection dogs, average 1,000 train rides a month.
    Terrorist tactics continue to evolve and we must keep pace. 
U.S.-based extremists will continue to pose the most frequent 
threat to the U.S. homeland. As tragic attacks in Boston and 
New York have shown, the new terrorist threat is already here. 
From lone-wolf attackers to ISIL radicals, we see a greater 
likelihood of attack now than we have in years.
    The internet and cyber space have become the new recruiting 
ground and the new battle space. Aided by the internet and 
social media, ISIL has featured plans to kill U.S. soldiers and 
law enforcement, and the recent attack in France demonstrates 
the threat is evolving and increasing.
    Across the country, we coordinate with numerous other 
local, State, and Federal agencies. We have officers assigned 
to the FBI National Joint Terrorism Task Force, as well as 
joint terrorist task forces in Baltimore, Chicago, New York, 
Philadelphia, Boston, and Washington, DC.
    One of our most visible efforts builds on a partnership 
with TSA that led to the creation of something called RAILSAFE. 
Amtrak Police, NYPD, and TSA started RAILSAFE in 2010, and 
there have been 50 RAILSAFEs in 42 States, the District of 
Columbia, and Vancouver, British Columbia, involving over 265 
agencies and over 1,600 law enforcement members since 2010. 
Amtrak has used DHS funding to provide our RAILSAFE partners 
and other first responders with training on the sharing of 
intelligence and the unified response to Amtrak incidents.
    Internationally, Amtrak Police partner with foreign law 
enforcement agencies in Europe with RAILPOL, where we share 
information on policing, intelligence, and Amtrak has a working 
relationship with Interpol. The Amtrak Intelligence Unit 
coordinates with the United States Department of 
Transportation. We have members aligned with regional fusion 
centers. We do welcome the VIPR teams who deploy at many of our 
stations on an unpredictable and random basis.
    Amtrak is a DHS test bed for piloting of new technology, 
and we have taken advantage of the TSA Baseline for Security 
Enhancement, which highlights Amtrak's security posture and 
adherence to accepted security practices.
    To extend our reach, we have developed programs that enable 
our employees, as well as our passengers, to report things that 
strike them as suspicious. We have trained our employees in 
techniques to spot suspicious behaviors, and by using phones or 
texting, have added tens of thousands of eyes to our efforts to 
watch over our passengers, trains, and facilities. It is a part 
of our larger strategy of working collaboratively with partner 
organizations and passengers so that we can add their unique 
strength to our own to ensure the safety of our systems and the 
communities we serve.
    Amtrak has taken advantage of DHS campaigns like If You See 
Something, Say Something, and passengers and employees can text 
us at APD11.
    Since the creation of TSA, there have been many security 
measures implemented. But we need to continue our partnerships, 
encourage our employees, passengers, and patrons to be 
observant and report suspicious activity. Thank you for the 
opportunity to discuss the Amtrak Police role in rail passenger 
protection, and I look forward to answering any questions you 
may have when you return.
    [The prepared statement of Chief Hanson follows:]
                   Prepared Statement of Polly Hanson
                           September 17, 2015
    Chairmen Katko and King, Ranking Members Rice and Higgins, and 
Members of the subcommittee, good afternoon, and thank you very much 
for the invitation to testify today. Amtrak takes its responsibility to 
protect its riders very seriously, and on behalf of Mr. Boardman, our 
president and CEO, and the men and women of the Amtrak Police 
Department (APD) I welcome the opportunity to testify before you today.
    Amtrak is America's Railroad. Our passengers travel between more 
than 500 communities in 46 States and our trains operate on over 21,000 
miles of track. Amtrak operates more than 300 daily trains delivering 
over 30 million travelers a year safely to their destinations. The 
Amtrak Police Department was created to protect Amtrak's employees, 
passengers, patrons, stations, stops, rolling stock, and other critical 
infrastructure. We do that by working closely with our colleagues in 
the law enforcement and counter-terrorism communities to collect 
intelligence, pilot new technology, and surge our resources on Amtrak 
trains, along our right-of-ways, and in our stations and engage our 
passengers and patrons in being our partners in safety.
    The Amtrak Police Department consists of more than 500 members 
based in 30 locations. While the department was created in the 1970's, 
it really wasn't until after September 11 that counter-terrorism became 
a large focus of our security plans. Uniform Patrol Division officers 
are the most visible part of our department. They patrol stations, ride 
trains, perform education and enforcement on railroad safety, and are 
the first response to Amtrak incidents. Our Special Operations Unit 
consists of officers with tactical skills who perform station surges, 
conduct random passenger bag screening, and perform counter 
surveillance, right-of-way patrols, and dignitary protection. Our K-9 
program which consists of both conventional and vapor wake detection 
dogs average 1,000 train rides a month. The Transportation Security 
Administration (TSA) supports Amtrak's robust K-9 program.
    Terrorist tactics continue to evolve, and we must keep pace. U.S.-
based extremists will continue to pose the most frequent threat to the 
U.S. homeland. As the tragic attacks in Boston, Texas, and New York 
have shown over the last several years, the new terrorist threats are 
already here. Either alone or in small groups, with the ability to mask 
the extent of their radicalization, these individuals represent the 
most lethal of threats. From ``lone-wolf'' attackers to ISIL radicals, 
we see a greater likelihood of attack than we have in years. The 
internet and cyber space has become the new recruiting ground and the 
new battlespace. Aided by the internet and social media, ISIS has 
featured plans to kill U.S. soldiers or law enforcement and the recent 
attacks in France and against tourists in Tunisia demonstrate the 
threat is increasing.
    Across the country, we coordinate with numerous other local, State, 
and Federal agencies, including the TSA, DHS, NCTC, CBP, DEA, FBI, U.S. 
MARSHALLS and the U.S. Capitol Police. Amtrak officers are assigned to 
the FBI National Joint Terrorism Task Force at the National Counter-
Terrorism Center, as well as Joint Terrorism Task forces in Baltimore, 
Chicago, New York, Philadelphia, Boston, and Washington, DC.
    One of our most visible efforts builds on a partnership with the 
TSA that led to the creation of the Regional Alliance Including Local, 
State, and Federal Efforts (RAILSAFE) Network. More than 200 agencies 
in over 40 States usually participate in Operation RAILSAFE which 
increases visibility at stations and stops and along the right-of-way 
and by water and in the air. Amtrak Police, NYPD, and TSA started 
RAILSAFE in 2010 and there have been 50 RAILSAFEs in 42 States, the 
District of Columbia, and Vancouver, Canada involving over 265 agencies 
and over 1,600 law enforcement members since then.
    Amtrak has used DHS funding to provide our RAILSAFE partners and 
other first responders with training on railroad safety, the sharing of 
intelligence, and the united response to Amtrak incidents. This 
training has been provided to almost 300 participants since 2014 in 11 
States.
    Internationally, Amtrak Police has partnered with foreign rail law 
enforcement agencies throughout Europe with the RAILPOL organization. 
Rail policing issues, intelligence, and information sharing are 
discussed and solid relationships have been established by our 
participation. Additionally, Amtrak Police has a working relationship 
with Interpol.
    Building on the extensive intelligence, military, and law 
enforcement backgrounds of its members, the Amtrak Intelligence Unit 
coordinates with the United States Department of Transportation Office 
of Intelligence, Security, and Emergency Response and has members 
aligned with the Washington Regional Threat Analysis Center and the 
Maryland State Fusion Center. Amtrak Police also welcome the Visible 
Intermodal Protection and Response (VIPR) Teams who deploy at many of 
our station facilities on an unpredictable and random basis. On a daily 
basis, TSA supports Amtrak's random passenger bag inspection program.
    Amtrak is a DHS test bed for the piloting of new technology and we 
have taken advantage of the TSA Surface Transportation Security 
Inspection Program Baseline Assessment for Security Enhancement, which 
highlights Amtrak's security posture and adherence to accepted security 
practices.
    To extend our reach, we have developed programs that enable other 
Amtrak employees as well as our passengers to report on things that 
strike them as unusual or suspicious. We have trained Amtrak's 
employees in techniques to spot suspicious behaviors. Using phones or 
texting, these tools have added tens of thousands of eyes to our 
efforts to watch over our passengers, trains, and facilities. The 
ability to leverage our skilled workforce, with its knowledge of the 
operating environment, is an important strength that contributes to the 
security and safety of our system. It is part of our larger strategy of 
working collaboratively with partner organizations and passengers so 
that we can add their unique strengths to our own to ensure the safety 
of our system and the communities it serves.
    Amtrak has taken advantage of DHS public awareness campaigns like 
``If You See Something, Say Something'' and texting a tip to APD11 
which was another initiative supported by DHS funding. I want to 
emphasize that since the creation of TSA there have been many security 
measures implemented but we need to continue our partnerships, 
encourage our employees, passengers, and patrons to be observant and 
report suspicious activity or behavior.
    Thank you again, for this opportunity to discuss the Amtrak Police 
role in rail passenger and infrastructure protection. I look forward to 
answering any questions that you may have.

    Mr. Katko. Thank you, Ms. Hanson.
    There is a series of three votes. We anticipate it being--
the first vote is just about ready to be expired. So we have 
got to roll. We have two 5-minute votes after that. As soon as 
the last vote is done, we will start here again in 10 minutes. 
So without objection, the committee and subcommittee is in 
recess subject to the call of the chair.
    [Recess.]
    Mr. Katko. The Subcommittees on Transportation Security and 
Counterterrorism and Intelligence will come to order. I now 
recognize myself for 5 minutes to ask questions.
    I want to make kind-of an overarching observation first 
before I get into some questions, and that is I am very mindful 
of the surface transportation attacks that have occurred 
overseas in Europe, the tragedy of them from years ago until 
more recently and the attempts more recently. It does make me 
conclude that we are vulnerable to that in this country as 
well.
    It was compounded when I went to Penn Station recently and 
took a tour there, and just the sheer mass of people there on a 
regular basis, and the different entry points and the different 
trains that are there, the different agencies that are there, 
Amtrak and Metro-North, and the subways and everything else. It 
just really does, I shudder to think what a tragedy that could 
happen there, just like you think about in airports.
    The difference between the rails and airports are that 
airports have a tremendous amount of scrutiny to them right now 
and a tremendous amount of security. I am concerned that the 
surface transportation system is lacking in the amount of 
security that it needs. But I am interested to hear from the 
viewpoints of all of you that are on the front lines every day, 
particularly Mr. Diaz and Ms. Hanson and Mr. Mayenschein. Also 
your observations, Ms. Grover, throughout your testimony with 
others today, as to what you think can be done better.
    So I guess to start out with Mr. Diaz and Ms. Hanson, since 
you have been on the front lines for most of your careers, if 
not all of them, that you kind-of give me your observation of 
what you think the overall state of security is and what you 
think needs to be done moving forward. We can start with Ms. 
Hanson, if you would please.
    Chief Hanson. I think there are a couple really wonderful 
things working. You mentioned New York. I can speak to there, 
but other places as well. In my testimony and others, you did 
hear people talk about collaboration and partnership.
    So New York has a very strong partnership with all the 
entities and more that you described that do provide service in 
and out of Penn Station. They, law enforcement executives, 
security people, freight members, and others have quarterly 
meetings and just have had several to coordinate and 
communicate about the Pope's visit.
    So I think you have a very strong presence there that is 
integrated, a tremendous amount of professionalism. That said, 
you also have layered security in the way that there is 
technology. Certainly using things like text-a-tip, which we 
use and other transportation entities use, because you do have 
to rely on the 700,000 people that are in Penn Station a day 
and the thousands of employees that we all have there.
    In my 27 years at Metro, I always thought one of the most 
important employees was the custodian, because that is somebody 
who is very familiar with the station and knows when something 
is suspicious.
    So we do have layered protection with biological detection. 
Some places use chemical detection. Long guns are deployed. You 
have countersurveillance, and by that I mean members that are 
not in uniform that have been trained to look for suspicious 
activity. Then I think the strong intelligence sharing that we 
have that may involve Federal partners and may not. The group 
that is in partnership in New York have each other on speed 
dial and text. The chief texted me when we had the derailment 
in Philadelphia to see if I needed any resources or support. Of 
course, in an event like the one we had in Philadelphia, the 
first inquiry is always, is there an act of terrorism?
    I can speak to what happened Friday at Union Station, which 
was not an active-shooter situation but did involve a shooting. 
We had done quite a bit of training with our employees, our 
business owners, our property manager, and our passengers. 
People did what we had taught them to do. Our businesses locked 
the doors, turned off the lights, and hid. Our employees 
hunkered down, in some cases in the back in the track area 
where they took passengers. We had an Acela that was loading. 
Our crews got on there, locked everybody down on that train.
    We had a response from the region because we were surging 
that day, but we had a coordinated response, and within 14 
minutes, we had train service back up because of the way that 
event was mitigated, the way things were communicated, and the 
strong partnerships that we have.
    I think you alluded to the fact that something did happen 
in 1993 on the Long Island Railroad, 6 people were killed and 
almost 20 people were injured by somebody, in that case, was 
mentally ill but still came on the train with a gun. An off-
duty Long Island Railroad police officer was the one that made 
the lock up. But in that case, much like France, the passengers 
on that train jumped on that guy and subdued him.
    So I think it is a combination of factors with law 
enforcement, our partnerships, the training we provide our 
employees, and the intelligence that we share as a community.
    Did I answer your question, sir?
    Mr. Katko. Yes. We could be here all day really discussing 
it. It is unfair to ask you to summarize it so quickly, but 
that is the time we have.
    Just in my time left, Mr. Diaz, if you could briefly 
respond to my question?
    Mr. Diaz. Chairman, I think as of September 2014, at the 
Governor's direction, if you look at Penn Station and some of 
our major terminals, like Grand Central, we substantially 
increased, by probably about 40 percent on the MTA PD side, 
increased our police presence there, our uniformed presence. In 
addition to that, the National Guard, New York National Guard 
was substantially increased in our terminals. The New York 
State Police now also are present in both of our terminals, 
Penn Station and Grand Central Station, in addition to riding 
our trains.
    So I feel very comfortable with the level of uniformed 
presence we have in those terminals. However, there is a 
concern because we were able to support that through transit 
security grant funding and a large part of that funding expired 
August 31. We have sort-of, like, we are running out of money.
    We thought we would probably have to cut back a little bit, 
but the direction from our Governor's office was that he did 
not want to see an increase. So we have been spending a lot of 
money to put those extra resources there. That is a concern of 
mine, at some point, that we are not going to have the funds to 
continue the level of presence we have had in those terminals.
    Mr. Katko. Thank you, Mr. Diaz.
    Of course, I have a thousand more questions I could ask, 
but I am going to respect the clock here as best I can. The 
Chair now recognizes the Ranking Minority Member of the 
subcommittee, the gentlelady from New York, Miss Rice, for any 
questions she may have.
    Miss Rice. Thank you, Mr. Chairman.
    Mr. Diaz, I just want to start with you, Mr. Diaz. The New 
York subway system, I would say, arguably, right, is considered 
larger than most of those, any other passenger rail systems in 
terms of passengers per day. How many people, what is the 
number, 8 million?
    Mr. Diaz. It is about 6 million passengers a day. We run 
over about 7,800 trains on a week day.
    Miss Rice. So how do you run such a vast operation and do 
it as successfully as you have? Now, taking into consideration 
the fact that, obviously, money is a big priority, and we hear 
you loud and clear about funds drying up making it more 
challenging for you to do your job. But you do it pretty well. 
I mean, I ride the subway, and I am pretty amazed that is done. 
I mean, you have issues. But how do you get it right? The 
report that Ms. Grover did: What, if any, improvements would 
you make if you could?
    Mr. Diaz. Well, what I would like to say, the New York City 
Police Department actually patrols our transit system. They 
have about 2,600 officers and they do a fantastic job. I mean, 
crime is like a minimum number of crime. We average about, I 
think, six crimes a day for that entire transportation system.
    They do a fantastic job of patrolling it. We have surge 
operations. We have bag inspections. Robust K-9 units that 
patrol those areas. We have a pretty elaborate CCTV and 
electronic security systems. Intrusion detection. Our tunnels 
are hardened to make it difficult for anybody to get into our 
tunnels and do anything to our trains and to our 
infrastructure.
    We have a lot of infrastructure protection in addition to 
the railroads. We have, it was mentioned earlier, Penn Station, 
if you look at Penn Station, it has bollards that circle almost 
the entire station. So if someone with a large bomb in a large 
vehicle, they are not going to get into that station. So we 
feel very comfortable with that.
    But those are the types of things that we like to do to 
protect our system. Again, it takes money to do that.
    Miss Rice. So you describe a very good relationship, 
obviously, with the NYPD. My question would be to Ms. Hanson, 
to you, again, Mr. Diaz, and Mr. Mayenschein, the Chairman said 
in his opening statement that up to this point a lot of the 
focus, at least before the incident that happened in Paris or 
outside of Paris, a lot of the focus in terms of security and 
transportation security has been on the aviation industry.
    So what I would like you to talk about, the three of you, 
is what level of cooperation and coordination do you have with 
people who are focused on that area, aviation security, and 
land and surface security? Because there is a lot of overlap 
there. So however you want to take the answer.
    Mr. Diaz. I can just say, on the intelligence side and 
information sharing, like recently there were some threats to 
aviation, we get immediate notifications for our partners at 
TSA. We have excellent communication when it comes to 
intelligence, I think. I am very impressed.
    I mean, every day I get intelligence information from all 
of our law enforcement partners, our Governmental partners. I 
have an interagency counterterrorism task force that every day 
gets briefings from all of those other areas and puts together 
a nice briefing package. We get that before 7 o'clock every 
morning. We distribute that to other law enforcement agencies.
    The information sharing, I think, is really outstanding. We 
have officers embedded into JTTF, New York City Intel-
CounterTerrorism. The information sharing, I think, is 
outstanding. I don't think there is any problem with that.
    TSOC, I know, was mentioned. About an hour ago, I just saw 
a TSOC notification from our New York City Transit to TSOC 
regarding a fare evader that didn't pay a fare and had a 
firearm on him illegally.
    So I think we have come a long way.
    Miss Rice. Mr. Mayenschein--because I have one question I 
want to ask all of you--would you agree, and Ms. Hanson, would 
you agree with Mr. Diaz's assessment?
    Mr. Mayenschein. Absolutely. I think what has happened with 
the surface transportation system is almost magical. It is a 
perfect match of Government and the private sector coordinating 
instantaneously and sharing information back and forth.
    This is all pretty much in absence of regulations. 
Aviation, maritime is heavily regulated. Not so, so much in 
surface. This has all been done because of the need to do it. 
This constant sharing back and forth is really quite 
tremendous. We make each other better. They improve what we do. 
We improve what they do. We share the best practices across the 
networks. When we get information from GAO about improvements 
that need to be made, we welcome those and make those 
improvements. We just continually get better. It is pretty 
amazing to me.
    Miss Rice. Ms. Hanson, would you add anything to that?
    Chief Hanson. Yes, two things. The Federal security 
directors out at the airports, we do have a close relationship 
with them at Amtrak because we do get resources from them. So 
there is regular dialogue.
    The other thing that I would say, which was a point that 
you have made, so aviation, and this isn't just recently, since 
September 11, the focus has really been on aviation. Of course, 
aviation moves millions of people a year, and mass transit 
moves billions, but the funding has been the reverse. So the 
money is focused on aviation versus transportation.
    I would ditto my colleague here where, because of the 
appropriations, the 2015 money has been delayed. We do rely on 
that money for additional resources for events that we will 
have, such as the Pope, in our case, the Super Bowls, and 
events like that where we have an increased threat because of 
the increased ridership.
    So the funding that we have gotten from the intercity 
passenger grant and that they have gotten from the transit 
security grant is something we have really come to rely on and 
is what has allowed MTA to do the infrastructure that they have 
done and the campaigns and some of the intelligence sharing. So 
that would be dramatic for us to have a reduction in funding.
    Miss Rice. Message received. Well done.
    One last question. In 5 words or the less, what is the 
biggest threat to our surface transportation system?
    Mr. Mayenschein. Certainly the unknown, the home-grown, 
unknown, violent extremist. They are like an unguided missile, 
like a scud missile. We just don't know that they are there. I 
think that is the biggest threat.
    Ms. Grover. The fact that the systems are just wide open.
    Chief Hanson. It has been explosives. It will be 
explosives. Then the lone wolf is a serious consideration, 
because somebody with a weapon, we see what they can do, and 
somebody with a knife, we see what they can do. But it is the 
combination of lone wolf and explosives.
    Mr. Diaz. I concur.
    Miss Rice. Great. Thank you all.
    Mr. Chairman, I just ask unanimous consent that Mr. 
Langevin be allowed to sit and question the witnesses during 
this hearing.
    Mr. Katko. Without objection, so ordered.
    The Chair now recognizes the Chairman of the Subcommittee 
on Counterterrorism and Intelligence, the esteemed gentleman 
from New York, Mr. King, for any questions he may have. He told 
me to say ``esteemed'' by the way.
    Mr. King. It was supposed to be ``very esteemed.'' In any 
event, thank you, Mr. Chairman.
    At the outset let me just say that, as Miss Rice said, the 
message is received. I really have to make sure that we deliver 
that to people in my party who play games with the spending and 
don't realize there is consequences. Any talk of Government 
shutdown, of money not coming, even if it comes months from 
now, the damage can be done. So your message is well received 
certainly by me.
    I have two questions, and it will be to Mr. Diaz and to 
Chief Hanson. First of all, thank you both for your testimony, 
and all of you for your testimony, and to you two in law 
enforcement, for the work you have done over the years.
    Two questions. Taking Penn Station and Grand Central, where 
everything comes together, you have the New York City subway 
system, you have Metro-North, you have Amtrak, how well-
constituted are you as far as incident command? Who is in 
charge when something occurs? Is that delineated as to who is 
responsible when an incident occurs? Also, does the FDNY get 
involved in that? Because here you have, let's see, at least 
three, four police departments, you have the National Guard. 
Again, I am just wondering, is that all coordinated as to who 
is in charge and who is not?
    Second on that, going back to years ago with the Transit 
Police, there was the problem with communications. How are the 
communications, the radio communications between the various 
police departments at Penn Station and Grand Central? That is 
probably the one area where all of you come together. Either 
one. Mr. Diaz, you can go first.
    Mr. Diaz. Yes, Chairman. Incident command, again, Grand 
Central is a Metro-North property. We do have also New York 
City Transit presence in Grand Central. We have great a 
relationship with them, a great working relationship. There is 
a fire brigade assigned to Grand Central that works for Metro-
North, and they have a great relationship with the fire 
department, all the fire department chiefs.
    I think as far as interoperability, I think we get along 
very good. As far as radio communication, that might be a 
little more difficult, but I think more important than radio 
communication, I think, is interagency cooperation and 
interagency interaction with each other. I think that we get 
the job done.
    Chief Hanson. I would say at Penn Station, very similar. We 
have a very strong emergency manager there. People know where 
to come. There are regular exercises----
    Mr. King. Emergency manager, is he with Amtrak?
    Chief Hanson. He is, yes, sir. Retired NYPD and has a very 
close relationship with the fire department. Everyone knows 
where to come. They regularly exercise. Unfortunately, there 
are enough events, smoke in a tunnel, that people do have an 
opportunity to exercise those capabilities.
    I think interoperability will always be an issue. Even with 
our potential access to 800 megahertz, it is not so much just 
being on the frequency, it is the other back end, cabling in a 
tunnel and some of the infrastructure that is so old.
    But I think we have very strong relationships, very strong 
incident and unified command.
    I would want to go back to one of your points about 
funding, and I am not belaboring it----
    Mr. King. Go ahead.
    Chief Hanson [continuing]. But sequestration did impact us 
very negatively. In our case, it diminished our grants by half 
a million dollars and it set us back over a year for our K-9 
Program with TSA. So we have one person in TSA K-9 training 
now, and if the Government shuts down, I would imagine that 
they have to come back home. We have two more dog handlers 
going to Lackland Air Force Base in October, and I would 
imagine if there is a shutdown, they have to come down.
    So it has taken us a year to catch up because of 
sequestration. Now, when we are trying to build our K-9 program 
back up, we will be limited by what happens here.
    Mr. King. One final question. Is everyone allowed to 
partake in table-top exercises as far as the police 
departments?
    Mr. Diaz. [Inaudible.]
    Chief Hanson. I think what you heard earlier in the 
testimony from TSA was, at Amtrak's request, TSA sponsored an 
I-STEP tabletop in Philadelphia. It was for all first 
responders and Federal, local, State entities, and it was the 
first table-top, and it was very effective, very well received.
    Mr. King. Thank you all for your testimony and your 
service.
    I yield back.
    Mr. Katko. Thank you, Mr. King.
    The Chair now recognizes the Ranking Minority Member of the 
Subcommittee on Counterterrorism and Intelligence, the 
gentleman from New York, Mr. Higgins, for any questions he may 
have.
    Mr. Higgins. Thank you, Mr. Chairman.
    First, just let me thank you, because a lot of what you do 
is about what didn't happen. You rarely get credit for what 
didn't happen. So thanks for all you have done to keep things 
from happening.
    Lawrence Wright wrote a book called ``The Looming Tower,'' 
which is a Pulitzer Prize-winning book about 9/11, and in it, 
he recounts the experience of an FBI agent working in his 
office in New York City. When the second plane hit the South 
Tower, he physically got sick because he knew that between the 
FBI, the CIA, and other law enforcement agencies, that they had 
the intelligence to perhaps thwart that attack on New York City 
and the Nation.
    So the sharing of information was very, very important, 
from which the PATRIOT Act came. A lot of things were added on 
to it that were objectionable to people, but the bottom line, 
the original thrust was to remove the barriers that existed 
between various law enforcement agencies so that they could 
pool their resources, they could share information, toward the 
goal of more effectively stopping terrorist activity.
    Mr. Diaz, New York City is probably, you know, all of its 
law enforcement agencies, all of the affiliates, is probably 
the greatest counterterrorism organization in the world--not 
out of choice, but out of necessity. You touched on it a little 
bit, but you had also mentioned that there are 6 million people 
that travel on those trains every day in 78 different trains. 
Can you talk a little bit more about how that information is 
shared? Is that a result of policy or the result of just the 
intuitive relationship that exists between law enforcement 
agencies towards the same goal, and that is protecting your 
common constituency?
    Mr. Diaz. Yes, sir. I think we all have the same goal. 
Again, like I said earlier, we have detectives that are 
assigned to JTTF, that are assigned to HITDA, that are assigned 
to NYPD Counterterrorism, and NYPD Intelligence. There is great 
information sharing. I mean, we talk together all of the time. 
Every day I receive briefings and alerts.
    I can say that, and it is funny, because it is not just at 
working hours. We have such a great relationship. We have 
fraternal organizations and we see each other at evening, at 
dinners, and other places. So we are constantly talking to each 
other. I think we have come a long, long ways from 9/11, and I 
don't think those issues that existed then exist anymore today.
    Mr. Higgins. So I presume that that is driven in large part 
by just an inherent sense that New York City is always going to 
be a major target, it is a high-impact target, and, thus, the 
role of law enforcement agencies working together is probably, 
while it is important generally, it seems to be particularly 
important in a city like New York.
    Chief Hanson. Well, I would say a couple of things to that. 
Amtrak has assigned somebody to the National Terrorism Task 
Force, so that we have the overarching, because we are in 46 
States.
    One of the things that I would highlight, though, is after 
September 11, then-Amtrak Police Chief Sonja Proctor 
established a group called the Northeast Corridor Coalition. So 
that group starts in the District of Columbia and goes to New 
York City. Regularly there is an intelligence component to that 
and then there is the higher-level executives, to include 
myself, Chief Bratton, and the chiefs in every town, State, 
from the District of Colubia to New York. Tremendous amount of 
exposure, for some people, who the first time we road the train 
didn't even know Amtrak went through their city.
    So that has allowed a growth of information sharing, 
relationships, a real sensitivity that people don't always have 
towards transportation policing. Transportation policing is 
very different and defined and specific. That is why that 
community of folks that are very similarly situated with those 
responsibilities is so important for those groups to share 
information.
    Mr. Higgins. Thank you very much. I have no further 
questions. I yield back.
    Mr. Katko. Thank you, Mr. Higgins.
    The Chair now recognizes the gentleman from Texas, Mr. 
Ratcliffe.
    Mr. Ratcliffe. Thank you, Chairman Katko and Chairman King 
both, for holding this hearing.
    The terrorist attacks of September 11 certainly showed the 
entire Nation that terrorists are willing to go to virtually 
any length and any means to inflict harm on the American 
people. In the years after September 11, the Federal Government 
has certainly taken a number of necessary steps to secure our 
airports and our airplanes from future attacks.
    But, as we all know, terrorists don't operate under 
conventional rules. I know this well as a former terrorism 
prosecutor. Terrorists adapt and they find new methods to 
exploit security and vulnerabilities to achieve their goal of 
mass casualties. So we have seen that in, frankly, places 
around the world.
    The district that I represent, the Fourth Congressional 
District of Texas, is full of small towns, like many of those 
that span this entire country. Almost all those communities 
have a bus stop and a train stop, whereas, they may not have an 
airport. So I would like to start with you, Ms. Hanson. Do you 
happen to know how many commercially-operated passenger air 
traffic hubs there are in the United States?
    Chief Hanson. I flunk.
    Mr. Ratcliffe. I understand it might be a better question 
for Mr. Mayenschein. I think it is around 200. The reason I ask 
is, by comparison, how many Amtrak stations are there around 
the country?
    Chief Hanson. Well, we go to 500 destinations. What I would 
like to tell you is that in small towns that you talked about, 
we took DHS money to train our partners in those small towns 
who we are very reliant on. We have regional detectives. But 
some of the response time, depending on where they are in 
relation to the train, could be an hour, 2 hours.
    So we have had those detectives cultivate close 
relationships with local law enforcement. The RAILSAFE Program 
that we described is an output of that. So we call on those 
folks during particular times to work with us and other 
partners to increase visibility.
    What I did was take DHS money to create a day-and-a-half 
course that, first of all, identifies what the threat is in the 
transportation environment. It explains how Amtrak collects 
intelligence and shares it. Then we run through a table-top 
exercise, one for a suspicious package and one for an active 
shooter. We have done that starting in 2015 and trained 
hundreds of law enforcement folks in 11 States.
    Mr. Ratcliffe. Okay. But in terms of response time and some 
of what you related, that is important, but before we get 
there, I guess, my concern is what we have seen in Europe, and 
I have intimated before that we have seen a number of surface 
transportation terrorist attacks. Last week I was at Union 
Station, took an Amtrak train, and I didn't go through security 
at all when I got on that train like I do at an airport. So 
other than the things that you just related----
    Chief Hanson. You may not have thought you went through 
security. We have a very robust vapor wake detection program. 
So those dogs that you see walking around there that look so 
nice with the floppy ears and they are very animated and 
excited were possibly smelling your wake to see if you had 
explosives.
    We also, as I mentioned earlier, have tactical units that 
are doing countersurveillance. So they are observing people's 
behavior. We also have people on trains and other capabilities. 
So you may not have seen the security. It doesn't mean that it 
is not there.
    Unfortunately, last year we had an attack on a train in 
Niles, Michigan. There we do not have the resources. They 
attacked our conductor, hurt him very bad. It was an 
emotionally disturbed man. We had to rely on the Niles Police 
Department who came and mitigated that situation. So it was a 
coordination of our efforts with our local law enforcement 
colleagues to respond.
    Mr. Ratcliffe. Okay. Well, and as I related, I didn't go 
through a formal security checkpoint or clearance like you see 
at the airport. One of the other things was that neither did my 
luggage that was with me and I didn't see that. On trains you 
see different sizes, everything from large suitcases to 
backpacks.
    Other than dogs and walking patrols, are there any 
mechanisms in place for the inspection of luggage?
    Chief Hanson. Amtrak is going to start a program starting 
October 1 where there is going to be restrictions imposed on 
the size and number of luggage. As a result of that, there may 
be more observation about luggage. But no, we are not screening 
your luggage like an airline does.
    Mr. Ratcliffe. Well, I see my 5 minutes went very quickly, 
so I yield back.
    Mr. Katko. Thank you, Mr. Ratcliffe.
    The Chair now recognizes the gentleman from New Jersey Mr. 
Payne.
    Mr. Payne. Thank you, Mr. Chairman, and to our Ranking 
Member.
    According to the rail industry officials, the transport of 
crude oil on trains through dense urban areas has increased 40-
fold since 2008. In addition to that, over the past decade or 
so railroads have begun shipping large quantities of flammable 
liquids, such as ethanol and crude oil, creating an entirely 
new response challenge.
    Every day, dangerous rail freight carrying security-
sensitive cargo travels throughout my district, weaving through 
residential areas and passing by schools and homes and 
businesses. In fact, Bakken crude, the more flammable oil, 
which makes it probably the most dangerous to transport, 
travels along New Jersey's rail line at a volume of 15 to 30 
million gallons per day.
    I have said it before in the whole committee and in my 
subcommittees and I will say it again, my district has the two 
most dangerous miles in America for terrorist targets, and that 
is in the area around Newark, New Jersey, and Elizabeth, where 
the rail, the interstate, the airport, the port, and chemical 
installations are within a 2-mile radius.
    With that said, Mr. Mayenschein--did I get it right?
    Mr. Mayenschein. Yes.
    Mr. Payne [continuing]. What role does TSA playing ensuring 
that dangerous rail freight in the communities that they must 
travel through are secure as can be? I have put forth 
legislation in order to strengthen the rail cars that carry 
this dangerous oil. So to my question?
    Mr. Mayenschein. So there are a couple levels here. First 
of all, this Rail Sensitive Security Material, the RSSM, is 
something that we do pay attention to, that is regulated. It is 
inspected. There are regulations that require inspections for 
certain things. So that is your toxic inhalation hazards, your 
liquefied chlorine, all the methylethanol bad stuff that is on 
trains. But that is not Bakken crude. That is a hazardous 
material, a different classification. There are regulations 
requiring hazardous material.
    So with the rate of inspections that go with this RSSM 
material, when it is transferred from shippers there are 
required inspections, when it transfers from one company's rail 
car to another company's rail car, there are required 
inspections, a surveillance of paperwork, and that sort-of 
thing.
    Mr. Payne. As we have seen over the past several years, the 
major explosion in Canada, we had an incident in Lynchburg, 
Virginia, and also a situation where a train derailed and fell 
into the James River in Virginia. I am very concerned about 
those issues.
    So how does TSA track the trains carrying the hazardous 
material in real time? Are there any steps taken en route from 
trains in high-threat urban areas? Mind you, my other issue is 
when these cars are sitting railside, the security of that is 
in place, it seems very lacking when it is just sitting in the 
yard to move to its next destination.
    Mr. Mayenschein. So if there is RSSM, there is toxic stuff, 
the car needs to be attended. I mean, that is part of the 
requirement, it needs to be attended.
    Mr. Payne. We are finding that that is not the case, 
though, to the degree that we feel that it is necessary in 
order to secure that.
    Mr. Mayenschein. Okay, I will take that back and take a 
look at that for you and get back to you specifically and get 
you very specific data, particularly for the Newark area.
    To the other part of your question, the TSA doesn't 
currently track hazardous materials in real time. So we don't 
presently do that. The TSA does have regulation and procedures 
in place to locate shipments of rail security and sensitive 
materials in the event of an elevated threat condition. So if 
there is an elevated threat condition, we will immediately 
reach out to the partners, the railroads, and they have 30 
minutes to respond back to us to identify where those toxic 
inhalation hazards, those RSSM materials are located.
    Mr. Payne. Okay.
    Mr. Chair, I will yield back.
    Mr. Katko. Thank you, Mr. Payne.
    The Chair recognizes the gentleman from Rhode Island, Mr. 
Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    I want to thank our witnesses here today.
    If I could, I would like to change tack a bit and ask about 
another threat that is facing our surface transportation 
system, and that is relating to cyber attack. So, Mr. 
Mayenschein, can you just give us a brief overview of TSA's 
actions in this domain?
    Mr. Mayenschein. Well, we are just now develop--we have 
always had an eye on cybersecurity, but in the last year this 
has become something that we are paying great attention to. 
Particularly we have seen a denial-of-service attacks at 
airlines, possibly other attacks.
    So we are connected through the interagency. We are talking 
to our partners out in the private sector about cybersecurity. 
We address it. Just recently we had a newsletter that went out 
to our surface partners and right on the front page was 
cybersecurity.
    So we are on top of it. We are learning, like everyone else 
is. This is another new threat against our homeland.
    Mr. Langevin. I think it is important, especially when you 
look at things like skid attacks. The same type of system that 
governs pumps and balances is the same thing that governs the 
switches and such to keep trains on track or to change track 
and such and could obviously be potentially penetrated.
    Can you also describe TSA's role in developing guidance for 
the transportation sector as it relates to the NIST Cyber 
Framework?
    Mr. Mayenschein. Well, again, we are connected through all 
the agencies. In my shop at the TSA, I am the NIST builder for 
the TSA. So I am the direct connection there. It is a vibrant, 
on-going process. You know, I would be welcome to come and talk 
to you about how we do that very specifically. It is very 
convoluted, complex, but there is some great work that is done 
there.
    Mr. Langevin. Sure. I would like to do some follow-up on 
that then.
    Mr. Mayenschein. That is great.
    Mr. Langevin. Mr. Diaz, Ms. Hanson, can you describe how 
you view the cybersecurity risk to your respective 
organizations? How do you go about making risk-management 
decisions? Do you feel that you have adequate in-house 
resources of information security? Whom do you partner with to 
help protect your assets?
    Mr. Diaz. On the MTA PD side, we have a lieutenant and two 
investigators that are assigned to the FBI Cyber Task Force. I 
think we have gotten a little ahead of the curve on that 
because we haven't had any real issues.
    But our IT department is ahead of the curve on that. They 
have a number of things in place. I am not really a computer 
expert, but I know that we get probes every single day, 
numerous probes into our system, and they have all been 
defeated. But it is a concern, and we do have our personnel 
assigned with the FBI so when that event comes we have things 
in place that are ready to address it.
    Mr. Langevin. Ms. Hanson.
    Chief Hanson. Amtrak used DHS funding to have a 
vulnerability risk assessment done. Our IT section, which is 
not in the police department, has increased their personnel and 
staffing. We closely align and have a very close relationship 
with the FBI.
    The FBI did recently put out some areas that they thought 
needed attention because of some of the threats from ISIL for 
September 11, and because of that they have got outsourced 
young hackers who work with our IT team, security team, to make 
sure that we are aware of who is trying to probe our system.
    We obviously have other concerns as a result of some of the 
new train sets we are building to make sure that we have and 
continue to work with the FBI about concerns there that could 
be in place to gather information that would be inadvertent and 
unintentional, but have a bad consequence.
    Mr. Langevin. Thank you.
    Mr. Mayenschein, going back to you again, how does TSA 
handle reports of cybersecurity intrusions and events? Do they 
count as security incidents? Are they reported to the TSOC and 
entered into the WebEOC system? Does TSA have any additional 
steps it takes for cyber incidents as compared to more 
traditional security events?
    Mr. Mayenschein. Well, again, we are just now building 
through a couple different departments at the TSA a coalition 
inside the TSA to start paying attention to these, not that we 
haven't been paying attention to them.
    I don't know specifically if this is a reported event. I 
will get back to you specifically if cyber events or cyber 
attacks are reportable to the TSOC.
    Certainly they should be and I will require that. That is 
something that I can do. If they are not, the------
    Mr. Langevin. I would also like to know what happens once 
the cyber incident is reported, what is the follow-up? How do 
you ensure that the vulnerability is closed?
    Mr. Mayenschein. Well, again, if it is internal to the TSA, 
and I don't know of any of those events, but if it is something 
to one of our security partners that happened in the private 
sector, there is again this great dialogue and communication to 
kind-of close those things. But in additional steps, we will 
make sure that everybody within our stakeholders would know, 
this sharing of information, that there was an attack, cyber 
attack, and how it was done, and we would share that 
immediately.
    Mr. Langevin. Ms. Grover, do you have anything to add?
    Ms. Grover. Well, just that 1 of the 10 categories of 
incidents that is required to be reported to the TSOC is the 
general category of threats. So it would depend on the specific 
guidance that TSA had developed about how to define threats 
about whether or not those are reported.
    Mr. Langevin. Thank you, Mr. Chairman.
    Mr. Katko. Thank you, Mr. Langevin.
    Before we conclude, there are a couple of overarching 
observations that I want to make. No. 1 is that, when I was at 
the 9/11 museum last Monday, September 8, for our field 
hearing, there was much discussion about the fact that people 
forget about 9/11 outside of New York City because they think 
that the terrorist threat is just focused on New York City. I 
know much of our testimony today was about New York City.
    But it is pretty clear to me and it is pretty clear to the 
committee that a terrorist threat is Nation-wide, and we can't 
stress enough the importance of having a discussion about 
Nation-wide threats. We have had a lot of discussion about New 
York and a little bit about Washington, but it is a Nation-wide 
threat, and I know you are all aware of that. But I just want 
the public to understand that it is not limited to New York 
City by any stretch of the imagination. The recent lone-wolf 
attacks we have seen in Chattanooga and elsewhere bear that 
out.
    So it is a concern going forward that the diligence and the 
competence and the professionalism that is displayed in the 
major urban areas needs to be branched out to the other areas. 
It is a discussion we need to continue to have. I know with the 
resources the way they are, that is a major concern. So I am 
sure we will have more discussions about that going forward.
    The other thing is, Ms. Grover, you didn't have a lot of 
opportunity to speak today, and some people are relieved with 
that and some people are not when you are a witness. But I will 
tell you that your reports are always extremely well done and 
we do read them and we do digest them and we do learn from 
them. So please keep up the good work that you are doing. 
Appreciate it.
    Ms. Grover. Thank you, sir.
    Mr. Katko. All right.
    Now, I thank the witnesses, all of you, for your testimony, 
and the Members for their questions. The Members of the 
committee may have some additional questions for the witnesses, 
and we will ask you to respond to these in writing. Pursuant to 
Committee Rule 7(e), the hearing record will be held open for 
10 days.
    Without objection, the subcommittees stand adjourned.
    [Whereupon, at 4:12 p.m., the subcommittees were 
adjourned.]

                                 <all>
</pre></body></html>
